«s

1

--No.

r JL 6

H U

In the

IS

m

i

Supreme Court, U.S.
FILED

Supreme Court of the United States

JUL 1 2 2021
OFFICE OF THE CLERK

In Re: GARY E. PEEL

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

PETITION FOR WRIT OF CERTIORARI

Gary E. Peel, pro se
9705 (Rear) Fairmont Road
Fairview Heights, IL 62208
Garvepeel@Hotmail.com
618-514-7203 (Cell)

1

nj

QUESTION PRESENTED

Whether a stand-alone (a/k/a free-standing) claim of “actual innocence” is
cognizable in a federal non-capital criminal case.

2

PARTIES TO THE PROCEEDING
The parties below were (l) Gary E. Peel and (2) BARBRA ZARRICK, (substituted
for JOHN M. KOECHNER), Chief United States Probation Officer for the Southern
District of Illinois.
LIST OF PROCEEDINGS
1. Petition for Writ of Habeas Corpus filed in the U.S. District Court for the
Southern District of Illinois, “Gary E. Peel v John M. Koechner,” Case No. 17CV—1045. Judgment entered 11-16-17. Memorandum and Order (on Motion
to Reconsider) entered 7*18-18. Notice of Appeal filed 8-9-19.
2. During the lengthy pendency of the appeal, an Original Petition for Writ of
Mandamus was filed in the United States Supreme Court 3-23-21 and
docketed 3 29-21, Case No. 29-7597. Original Petition denied on 4-26-21
3. Notice of Appeal filed 8-9-19 in the United States Court of Appeals for the
Seventh Circuit, “Gary E. Peel v Barbra Zarrick [Successor to John M.
Koechner, as Chief Probation Officer for the Southern District of Illinois].”
Appellate Case No. 18-2732. The pertinent orders and opinions of the District
Court are reproduced at Appendices. A, B, and C.
Judgment/decision entered 6-4-21 and Order denying Motion for Panel and/or
En Banc Rehearing entered on 6-30-21 [Appendices D & E, respectively].

3

TABLE OF CONTENTS
Page
QUESTION(S) PRESENTED

2

PARTIES TO THE PROCEEDING

3

LIST OF PROCEEDINGS

3

TABLE OF CONTENTS
(With appendix list)

4
4

CITATIONS OF OFFICAL AND UNOFFICAL
REPORTS OF THE OPINIONS AND ORDERS
ENTERED IN THE CASE BY COURTS

6

JURISDICTION
(With Partial Subject Matter Jurisdictional Challenge)

6

TABLE OF AUTHORITIES
(Cases)
(Constitutional & Statutory Provisions Involved)

11

STATEMENT OF THE CASE

13

PETITION FOR WRIT OF CERTIORARI

15

REASONS FOR GRANTING THE WRIT

16

ARGUMENT

21

CONCLUSION

41

6
6

APPENDIX
APPENDIX A

Peel vKoechner Dist. Ct. No. 17-cvl045-SMY
Memorandum and Order (11-16-17)

APPENDIX B

Peel v Koechner Dist. Ct. No. 17-cv-1045-SMY
Judgment in a Civil Case (11-16-17)

APPENDIX C

Peel v Koechner Dist. Ct. No. 17-cv-1045-SMY
Memorandum and Order (7-18-18)

4

x.

APPENDIX D

Peel vZarrick
(7th Cir. Case No. 18-2732 decided 6-4-21)

APPENDIX E

Peel v Zarrick
(7th Cir. Case No. 18-2732)
(Panel & en banc re-hearing denied on 6-30-21)

APPENDIX F

Transcript of “Judicial Notice” in the criminal trial of
United States v Peel [So. Dist. of IL
Case No. (06-CR-30049)]

APPENDIX G

Bankruptcy Court Minute Record of 1-6-06

APPENDIX-H

Transcript of Bankruptcy Court Hearing of 1-6-06.

APPENDIX -I

Complaint to Determine Dischargeability of Debts

APPENDIX -J

Indictment in the criminal trial of United States
v Peel [So. Dist. of IL Case No. (06-CR-30049)]

APPENDIX -K

Partial Transcript of the testimony of Donna Rodgers
(“D.R.” in the Indictment) in the criminal
trial of United States v Peel [So. Dist. of IL
Case No. (06-CR-30049)]

APPENDIX -L

Partial Transcript of the testimony of Attorney Donald
Urban in the criminal trial of United States v Peel
[So. Dist. of IL Case No. (06*CR-30049)]

APPENDIX M

Partial Transcript of the testimony of Attorney Laura
Grandy in the criminal trial of United States v Peel [So.
Dist. of IL Case No. (06-CR-30049)]

APPENDIX-N

Partial Transcript of the Closing Argument of Asst. U. S.
Attorney Kevin Burke in the criminal trial of United
States vPeel [So. Dist. of IL Case No. (06-CR-30049)]

APPENDIX - O

Partial Transcript of the testimony of Deborah J. Peel
in the criminal trial of United States vPeel [So. Dist. of
IL [Case No. (06-CR-30049)]

APPENDIX - P

Attorney Steve Stanton’s letter of 1-11-06 to Attorneys
Donald Urban and Donald Samson

APPENDIX - Q

Deborah J. Peel’s (ex-wife’s) Bankruptcy Claim 2-1

APPENDIX-R

[Chart of Appellate] Court Decisions in Conflict

5

CITATIONS OF OFFICAL AND UNOFFICAL REPORTS OF THE OPINIONS
AND ORDERS ENTERED IN THE CASE BY COURTS
Peel vKoechner, Case No. 17-cv-1045-SMY, (S.D. Ill. 2017) — Reported but no
citation yet.
Peel vZarrick, Case No. 18-2732, (CA-7, 2021) - Not yet reported.
JURISDICTION
(With Partial Subject Matter Jurisdictional Challenge)
The jurisdiction of this Court is properly invoked pursuant to 28 U.S.C. §1254(1).
With regard to the four-count Indictment [Appendix-J], federal jurisdiction, in the
court of first instance, was invoked pursuant to 18 U.S.C. §152(6), 18 U.S.C.
§ 1512(c)(2), and allegedly 18 U.S.C. §2252A(a)(5)(B).
Subject matter jurisdictional challenge. Petitioner argues that, with regard to
Counts 3 & 4 of the Indictment, charging possession of child pornography under 18
U.S.C. §2252A(a)(5)(B), there is no federal subject matter jurisdiction, because the
Indictment — on its face - fails to allege a federal criminal offense, i.e. the “victim”
is alleged to be an adult when the subject materials were produced.
TABLE OF AUTHORITIES
(CASES)
Page(s)

Adarand Constructors v Pena
515 U.S. 200, 214, 132 L.Ed.2d 158, 174 (1995)

28

Andrus v Allard
444 U.S. 51, 62 L.Ed.2d 210 (1979)

29

Apprendi vs New Jersey
530 U.S. 466, 477 (2000)

31

Ashcroft v Free Speech Coalition
535 U.S. 234 (2002)

12,19,25,26,27,28
6

Beazell v Ohio
269 U.S. 167, 169, 70 L.Ed.216, (1925)
Bolling v Sharpe
347 U.S. 497, 500, 98 L.Ed.2d 884, (1954)

30

28, 29

Bouie v Columbia
378 U.S. 351, 12 L.Ed.2d 894 (1964)

32

Bousley v. U.S.
523 U.S. 614, 118 S.Ct. 1604, 140 L.Ed.2d 828 (1998)

22

Buggs v. U.S.
153 F.3d 439, 444 (CA7, 1998)

22

Burgess v United States
553 U.S. 124, 170 L.Ed.2d 478 (2008)
Calder v Bell
1 L.Ed. 648, 3 Dali 386, 390 (1798)

31-32
30

Calderon v Thompson
523 U.S. 538, 558-559, 118 S.Ct. 1489, 1503,
140 L.Ed.2d 728 (1998)

37, 39

Chiro v. Summerlin
542 U.S. 348, 352 (2004)

22

Collins v Youngblood
110 S.Ct. 2715, 2718-19 (1990)

30

Colorado v Connelly
479 U.S. 157, 167, 93 L.Ed.2d 473 (1986)

31, 37

Corcoran v. Sullivan
112 F.3d 836, 838 (7th Cir.1997)

22

Davis v. United States
417 U.S. 333, 346-347, 94 S.Ct. 2298,
41 L.Ed.2d 109 (1974)

22

DA’s Office v. Osborne
129 S. Ct. 2308 (2009)

16

7

Gladney v Pollard
799 F.3d 889, 898-899 (CA7, 2014)

39

Gomez vJaimet
350 F.3d 673, 679 (CA7, 2003)

39

Herrera v Collins
506 U.S. 390, 113 S.Ct. 853, 122 L.Ed.2d 203 (1993)

16, 40

House vBell
547 U.S. 518, 537, 126 S.Ct. 2064, 165 L.Ed.2d 1 (2006)

17, 39

Hurd v Hodge
334 U.S. 24, 35, 92 L.Ed.2d 1187 (1948)
In Re [the Debtor] Gary E. Peel
05*33238 (U.S. Bankruptcy Court for the So. Dist. of IL)
2013 U.S. Dist. LEXIS 19478!
725 F.3d 696 (CA7, 2013)
In Re Gary Peel, (Original habeas corpus petition)
Supreme Court Case No., 16-8577

28

19, 39, 40
15

Johnson v. United States
805 F.2d 1284, 1288 (7th Cir.1986)

19, 22

Jones v Calloway
842 F.3d 454, 461 462 (CA7, 2016)

39

Kramer v Olson

347 F.3d 214, 218 (7* Cir. 2003)

35

Lamie v U.S. Tr.

540 U.S. 526, 157 L.Ed.2d 1024 (2004)

32

Lewis v United States

523 U.S. 155, 118 S.Ct. 1135, 140 L.Ed.2d 271 (1998)
Lisenba v California
314 U.S. 219, 2236, 86 L.Ed. 166 (1941)
Lively v. Wild Oats Markets, Inc.
2006 WL 3425193, n.2. (2006)

24
31, 37
21

8

McQuiggin v Perkins
569 U.S. 383, 185 L.Ed.2d 1019 (2013)

16, 40

Wletrish v Lancaster
569 U.S.__ ,133 S.Ct. 1781,
185 L.Ed.2d 988 (2013)

30

Mitchell v. Maurer,
293 U.S. 237, 244, 55 S.Ct. 162,
79 L.Ed. 338 (1934)

21

New York v Ferber
458 U.S. 747, 759, 102 S.Ct. 3348, 73 L.Ed.2d 1113 (1982)

26, 28

Peel vSepanek
14-CV-77 (E. Dist. of KY) 2014 U.S. Dist. LEXIS 98552.
Sixth Cir. Appellate Case No. 14-6005,193 L.Ed.2d 411

14

Peel v United States (§2255 Motion)
12-CV-275 (So. Dist. of IL 2012), 2013 U.S. Dist. LEXIS 60865
Seventh Cir. Case No. 15-3269, Cert. Den. 188 L.Ed.2d 354

13

Peel vZarrick (formerly Koechner)
17-cv-1045 (So. Dist. of IL): 18-2732 (7th Cir. Case No.)

3,6

Rogers v Tennessee
532 U.S. 451, 457, 149 L.Ed.2d 697, 706 (2001)

32

Rose v Locke
423 U.S. 48, 53, 46 L.Ed.2d 185 (1975)

32

Scblup vDelo
513 U.S. 298, 324, 130 L.Ed.2d 808,
115 S.Ct. 851, 865 (1995)

16,17,39
In Passim

Strickland v Washington
466 US 668, 104 S.Ct. 2052 (1984)

In Passim

Thomas v Williams
822 F.3d 378, 387 (CA7, 2016)

39

United States v. Bateman

805 F..Supp. 1053, 1055 (D.N.H.1992)
United States v Harriss
347 U.S. 612, 617, 98 L.Ed.2d 989, 996 (1954)
9

28
32

United States v. Lanier
520 U.S. 259,
, n. 6, 117 S.Ct. 1219 1226,
137 L.Ed.2d 432 (1997)

22

United States v Meyer
602 F. Supp. 1476 (1984)

30

United States v. Mosley
786 F.2d 1330, 1334 (7th Cir.), cert, denied, 106 S.Ct. 2919, 91 L.Ed.2d 548 (1986)

U.S.

United States v Peel
06-CR-30049 (So. Dist. of IL 2006)
595 F.3d 763 (7th Cir. 2010); 131 S.Ct. 994
668 F.3d 506 (7* Cir. 2012)

22

13, 26

United States v. Porter,
709 F.Supp. 770, 774 (E.D.Mich.1989),
affd, 895 F.2d 1415 (6th Cir. 1990)

28

United States v. United Mine Workers ofAmerica
330 U.S. 258, 290, 67 S.Ct. 677, 91 L. Ed. 884 (1947)

21

United States v. Whaley
830 F.2d 1469, 1476 (CA7 1987)

22

United States v. Esposito
771 F.2d 283, 288 (7th Cir.1985), cert, denied,
475 U.S. 1011, 106 S.Ct. 1187, 89 L.Ed.2d 302 (1986)

22

Village of Willowbrook v Olech
528 U.S. 562, 564, 120 S.Ct. 1073, 145 L.Ed.2dl060 (2000)

29

Weaver v Graham
450 U.S. 24, 30, 67 L.Ed.2d 217 (1981)

30

Welch v United States
136 S.Ct. 1257, 1266,194 L.Ed. 2d 387 (2016)

22

Wellness Intern. Network, Ltd. v. Sharif,
575 U. S. 665,135 S.Ct. 1932, 1956 (2015)

21

Williams v United States
327 U.S. 711, 90 L.Ed.962 (1946)

23, 24

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitutional Provisions (Relevant Portions)
10

29

1. Art. I, Sec. 9, Cl. 3 (Ex Post Facto Clause)
“No ... expost facto law shall be passed.”
2. First Amendment (Free Speech)

25, 26, 27, 28

“Congress shall make no law... abridging the freedom of speech.”
3. Fifth Amendment (Due Process - “Fair Notice”, “Fair Trial”,
29, 31, 36, 37

and “Takings” Clause)

“No person shall... be deprived of life, liberty, or property without
due process of law;...”
4. Fourteenth Amendment (Equal Protection Clause)

28

“No State shall... deny to any person within its jurisdiction the equal
protection of the laws.”
5. Eighth Amendment (Cruel and Unusual Punishment)

32, 33

“ Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.”
(Statutory Provisions)
(Relevant Portions)
18 U.S.C. §2252A (Possession of Child Pornography)
“(a) Any person who - (5) either -(B) knowingly possesses ...any other
material that contains an image of child pornography...shall be punished....
(c) It shall be an affirmative defense to a charge of violating paragraph (1),
(2), (3)(A), (4), or (5) of subsection (a)that (l)(A) the alleged child pornography was produced using an
actual person or persons engaging in sexually explicit conduct;
and
(B) each such person was an adult at the time the material
was produced; or
(2) the alleged child pornography was not produced using any
alleged minor or minors.
6, 13, 18,20,22-24,26-28,31
11

18 U.S.C. §2256(8)(B) & (D)(Definitions Statute — Relevant portions — both held
unconstitutional in Ashcroft v. Free Speech Coalition, 535 U.S. 234 (2002);
§ 2256(8) (B),
"any visual depiction, including any photograph, film, video,
picture, or computer or computer-generated image or picture,"
that "is, or appears to be, of a minor engaging in sexually
explicit conduct,"
and
§ 2256(8)(D).
any sexually explicit image that is "advertised, promoted,
presented, described, or distributed in such a manner that
conveys the impression" it depicts "a minor engaging in sexually
explicit conduct,"
24-26, 28, 31
18 U.S.C.§1512(c)(2)

6, 13

18 U.S.C. §152(6) A person who —
(6) knowingly and fraudulently gives, offers, receives, or attempts to obtain
any money or property, remuneration, compensation, reward, advantage, or
promise thereof for acting or forbearing to act in any case under title 11;
shall be fined under this title, imprisoned not more than 5 years, or both.
6, 13, 20
20 Cong. Rec. 997

23

28 U.S.C. §1254(1)
Child Pornography Prevention Act of 1996, Pub. L. No. 104-208, Div. A,
Title I, §10l(a), 110 Stat. 3009-26, 18 U.S.C. §2251 et. seq.

25

Child Protection Act of 1984, Pub. L. No. 98-292, 98 Stat. 204

23

Child Protection Restoration and Penalties Enhancement Act of 1990,
Pub. L. No. 101-647, title III, 104 Stat. 4816

23,30

Protection of Children Against Sexual Exploitation Act of 1977,
Pub. L. No. 97-225, 92 Stat. 7 (1978)

23

Sex Offender Registration and Notification Act, Pub. L. No. 109-248, 120
Stat. 590, 42 U.S.C. §16901 et. seq. (2006)

13

12

STATEMENT OF THE CASE
Petitioner was indicted in the U.S. District Court for the Southern District of
Illinois (06-CR-30049) on March 22, 2006. The jurisdictional bases for the court of
first instance is 18 U.S.C. §152(6), 18 U.S.C.§1512(c)(2), and 18 U.S.C.
§2252A(a)(5)(B). [See APPENDIX-J]. A jury verdict of “guilty” was returned on all
counts on 3-23-07. Judgment and conviction were entered on 11-19-07 with a
sentence of 144 months imposed, [including conditions imposed by the Sex Offender
Registration and Notification Act, Pub. L. No. 109-248, 120 Stat. 590, 42 U.S.C.
§16901 et. seq. (2006)1.
Petitioner’s first direct appeal [ United States v Peel, 595 F.3d 763 (7th Cir.
2010)1 affirmed, in part, and reversed, in part, the judgment. Count 2 was dismissed
as duplicitous of Count 1. Certiorari was denied. 131 S.Ct. 994. On re-sentencing,
the same sentence was imposed. A second appeal was taken. On 2-6*12, the
Seventh Circuit affirmed Petitioner’s revised sentence. United States v Peel, 668
F.3d 506 (7th Cir. 2012).
On 3-29-12 Petitioner filed a §2255 Motion. (Peel v United States, Case No.
12-CV-275). It and a Certificate of Appealability were denied on 4-29-13. (2013 U.S.
Dist. LEXIS 60865). Petitioner appealed and sought consolidation and recall of
prior mandates. This was denied on 10-18-13. (Appellate Case No. 13 2124).
Rehearing en bancvtas denied on 12-3-13. Certiorari was denied on 2-24-14, (188
L.Ed.2d 354). On 511-14 Petitioner filed a Petition for Writ of Habeas Corpus
[without any constitutional challenges] in the U.S. Dist. Court for the Eastern Dist.
13

of Kentucky (Peel v Sepanek, Case No. 14-CV-77). It was procedurally denied. 2014
U.S. Dist. LEXIS 98552. The Sixth Circuit affirmed the procedural denial on 2-2615 (Appellate Case No. 14-6005). On 4-14-15, Petitioner’s Motion for rehearing en
bancwas denied. On 11-16-15, certiorari was denied (193 L.Ed.2d 411). On 10-6-15
Petitioner filed, in the Seventh Circuit, an “Emergency Motion for Immediate
Release from Custody or in the Alternative for Permission to File a Second or
Successive Motion for Relief Under 28 U.S.C. §2255 Based Upon Newly Discovered
Evidence.” On 10-16-15, this was procedurally denied because no constitutional
issue was raised. A Motion to Reconsider was filed on 10-26-15 and denied on 11-215 (Appellate Case No. 15-3269).
On 12-4-15 Petitioner filed a “Motion to Reform Judgment and Sentence
Under Rule 60(b)” with the U. S. District Court for the Southern District of Illinois
(Case No. 06-CR-30049). It was procedurally denied on 5-12-16 as not filed within
one year of the entry of the Amended Judgment in A Criminal Case. Petitioner filed
a “Motion for Leave to File a Second or Successive Collateral Attack to Recall
Mandate” with the Seventh Circuit on 3-25-16. It was denied on 4-11-16. A Petition
for panel rehearing, or for rehearing en banc, was denied on 5*2-16 (Appellate Case
No. 16-1665).
On 7-25-16 Petitioner filed a “Motion to Set Aside Amended Judgment in A
Criminal Case for Fraud Upon the Court Pursuant To F.R.Civ.P. 60(d)(3),” with the
U. S. District Court for the Southern District of Illinois (Case No. 06-CR-30049).
This was denied on 8-15-16. An appeal was filed on 8-2916. On 12-17-16, the

14

Seventh Circuit ordered the District Court Order of 8-15-16 vacated with
instructions to dismiss for lack of jurisdiction and denied the “implicit request for
permission to bring a successive §2255 motion...” (Appellate Case No. 16-3297).
On 1-18-17, a “Petition for Original Writ of Habeas Corpus” was filed with the
Supreme Court. On 4-24-17, it was summarily denied without a decision on the
merits. {In Re Gary Peel, Supreme Court Case No., 16-8577).
On 9-28-17, Petitioner filed a Petition for Writ of Habeas Corpus in the U. S.
District Court for the Southern District of Illinois. [District Court No. 17-cv-1045].
On 11-16-17, it was procedurally denied. On 12-8-17 Petitioner filed a Motion to
Alter or Amend a Judgment in a Civil Case [pursuant to F.R.Civ.P. 59(e)] a/k/a
Motion to Reconsider Memorandum and Order and Judgment in a Civil Case. This
was denied on 7-18-18.
On 8-9-18 Petitioner filed his Notice of Appeal. [Appellate Court No. 18-2732]
This habeas appeal was denied on June 4, 2021. [Appendix-D] On June 15, 2021,
Petitioner filed a “Motion for Re-hearing or Re-hearing En Banc.” Same was denied
on June 30, 2021. [Appendix-E]
PETITION FOR A WRIT OF CERTIORARI
Petitioner, Gary E. Peel, pro se, respectfully petitions this Court for a Writ of
Certiorari to review the judgment and opinion of the United States Court of Appeals
for the Seventh Circuit entered and filed on June 4, 2021 (with a Motion for Panel
Rehearing and/or En Banc Rehearing denied on June 30, 2021). [Appendices D & E]
REASONS FOR GRANTING THE WRIT

15

The Supreme Court, recognizing that there is injustice in convicting an
innocent person [Schlup vDelo 513 U.S. 298, 325 (1995)], has never resolved
whether a federally convicted petitioner is entitled to habeas relief based on a free­
standing claim of “actual innocence” in a non-capital case. See McQuiggin v Perkins,
569 U.S. 383, 392, 133 S.Ct. 1924, 1931, 185 L.Ed.2d 1019, 81 USLW 4327 (2013)
and Herrera v. Collins, 506 U.S. 390, 404-405, 113 S.Ct. 853, 122 L.Ed.2d 203
(1993)1.
The “right” to overturn a verdict based on proof of actual innocence, i.e. the
free-standing “actual innocence doctrine,” has not been openly embraced by the U.S.
Supreme Court, in either capital or non-capital cases. It has only been assumed for
the sake of argument. In DA’s Office v. Osborne, 129 S. Ct. 2308, 557 U.S. 52, 71
(2009), this Court observed that
“As a fallback, Osborne also obliquely relies on an asserted federal
constitutional right to be released upon proof of‘actual innocence.’ Whether
such a federal right exists is an open question. We have struggled with it over
the years, in some cases assuming, arguendo, that it exists while also noting
the difficult questions such a right would pose and the high standard any
claimant would have to meet. [Citations omitted.]”
Although the Supreme Court has not articulated the high standard for a
free-standing actual innocence claim, assuming one exists, it has suggested that the

1 In dismissing Herrera’s claim this Court “assume [d], for the sake of argument. . . that in a capital
case a truly persuasive demonstration of ‘actual innocence’ made after trial would render the
execution of a defendant unconstitutional, and warrant federal habeas relief if there were no state
avenue open to process such a claim.” Here, in a federal prosecution, there is no state avenue
available. The Herrera Court, at n. 126, recognized that due process requires that a defendant be
afforded a full system of meaningful remedies and that if a habeas petitioner is not afforded a
hearing on his claim, then due process is violated. See also Blackmun’s dissent in Herrera (joined by
Justices Stevens and Souter) in Herrera, at 430-431.
16

standard would require more convincing proof of innocence than the gateway
standard articulated in Schlup which requires a movant to demonstrate that, “in
light of new evidence, ‘it is more likely than not that no reasonable juror would have
found petitioner guilty beyond a reasonable doubt.’” House v Bell, 547 U.S. 518,
536-37, 555, 126 S.Ct. 2064, 165 L.Ed.2d 1 (2006) (quoting Schlup v. Delo, 513 U.S.
298, 327, 115 S.Ct. 851, 130 L.Ed.2d 808 (1995)).
The federal appellate courts are split on this free standing “actual innocence”
debate. See APPENDIX-R [(Chart of Appellate) Court Decisions in Conflict].
Granting this writ will aid this Court’s appellate jurisdiction, by establishing
hierarchical stare decisis on this issue so as to eliminate future challenges. Some
appellate court’s limit relief to only those cases qualifying under §2255(e), thereby
rejecting otherwise valid claims of exoneration based on “newly discovered
evidence,” such as DNA evidence and official misconduct.
Exceptional circumstances, here, warrant the exercise of this Court’s
discretionary powers because a factually and legally innocent Petitioner has been
procedurally denied any opportunity for an evidentiary hearing to demonstrate his
“actual innocence,” and adequate relief cannot be obtained in any other form or from
any other court.
This is an issue of enormous public interest, especially as to persons wrongfully
convicted of federal non-capital criminal offenses. Courts, lawyers, and litigants
would greatly benefit from this Court’s directive and clarification. The expenditure
of judicial resources would be substantially curtailed by eliminating this ongoing
17

debate.
Ignoring Strickland violations, that include the failure
i)

to seek a dismissal of Counts 3 & 4 for failure to allege a federal
criminal offense,

ii)

to raise an ex post facto challenge to the charges (because the
1974 adult had been converted to a minor in 2006 to facilitate
the federal criminal prosecution)

hi)

to raise and give notice of the intent to assert the charging
statute’s affirmative defenses at 18 USC §2252A(c)(l) and (c)(2),

iv)

to seek a directed verdict at the close of the government’s case in
chief and/or at the close of all the evidence, and

v)

to tender the applicable Seventh Circuit affirmative defense
jury instruction,

there remain four separate types of “actual innocence” unique to this petition, i.e.
First, under Counts 3 & 4 (charging possession of child pornography), the
Indictment fails, on its face, to allege a federal criminal offense (thereby leaving the
federal courts without subject matter jurisdiction).
Second, under Counts 3 & 4 (charging possession of child pornography), 100%
of all evidence confirms the alleged “victim” to have been an adult
Third, under Count 1 (charging bankruptcy fraud), reliable newly discovered

18

evidence available at the time of trial but NOTpresented to the jury,2 confirms
actual innocence, [Appendices J, M, & N] and
Fourth, as to Count 1 (charging bankruptcy fraud), reliable newly discovered
evidence3 - confirmed four (4) years after trial - proves that the prosecution
knowingly or unwittingly utilized FALSE evidence to procure the conviction.
Because the “newly discovered evidence” consists of persuasive and binding
court decisions, it would appear that the Scblup gateway standard of proof is
exceeded.
Further, this Court should grant this Petition for Writ of Certiorari to protect
the integrity and function of hierarchical (vertical) stare decisis (with regard to
Counts 3 & 4 of the Indictment)[Appendix-J]. The Seventh Circuit’s outlier refusal
to follow Ashcroft v Free Speech Coalition, 535 U.S. 234, 239-240, 152 L.Ed.2d 403
(2002), (requiring both a real-life minor at the time of production and a criminal act
of child abuse or exploitation that is integral to the photographic production
process.) The refusal of the Seventh Circuit to follow Supreme Court precedent

2 This available (but not presented to the jury) evidence would only have disproven one of the
government’s three theories of criminal culpability. A complete “actual innocence” claim was
therefore premature until four (4) years after trial when the last of the government’s three theories
of culpability was disproven. See footnote 2..
3 On 12-19-11 — more than four (4) years after the trial - the Bankruptcy Court determined the
value of the ex-wife’s claim was $158,455.63, not $2,800,000 as presented to the jury.. The District
Court affirmed (2013 U.S. Dist. LEXIS 19478). The Seventh Circuit, in In re [The Debtor] GaryE.
Peel, 725 F.3d 696 (CA7, 2013) further reduced the ex-wife’s claim by $12,400, bringing her total
claim value to $144,055.63 not $2,800,000. This appellate decision was rendered on 8-2-13
(approximately 3 months after the Petitioners first §2255 Motion was denied on 4-29-13, An
appellate, or other court, opinion is a “fact” and may be treated as newly discovered evidence which
warrants consideration and may support a claim of collateral relief. See Johnson v United States
544 U.S. 295, 302, 306-308, 31, 161 L.Ed.2d 542, 551-552, 554-556, 558 (2005). Note: unlike the case
at bar, Johnson only involved a sentencing issue and therefor AEDPA limitation periods applied in
that case.
19

jeopardizes hierarchical stare decisis. Without stare decisis, there is no restriction
on prosecutorial abuse invited by Petitioner’s conviction on these two counts.
Personal to the Petitioner is this fact, i.e. he has never enjoyed an
unobstructed opportunity for an evidentiary hearing to present his free-standing
“actual innocence” claims. These factual and legal “actual innocence” claims are
predicated upon the following:
a) Under Counts 3 & 4 of the Indictment, charging possession of child
pornography pursuant to 18 U.S.C. §2252A(a)(5)(B),
i. the Indictment, on its face, fails to allege a federal criminal
offense,
ii. the Indictment plus all testimonial and documentary evidence
confirms the “victim’s” status as an adult at the time the subject
photographs were consensually produced in 1974; and
iii. the trial court took “judicial notice of the fact that in 1973 and
1974, the age of consent for sexual activity was 16,” [while
simultaneously instructing the jury to disregard that very same
judicially noticed fact4, which is the sine qua non of the charging
statute].
b) Under Count 1 of the Indictment, [Appendix-J], charging bankruptcy
fraud pursuant to 18 U.S.C §152(6), reliable newly discovered

4 The record is void of any objection by trial counsel to the trial court's instruction to disregard this judicially
noticed fact - another critical Strickland violation.

20

evidence5 finally confirmed, on 8-2-13, four (4) years after trial and
three months after Petitioner’s §2255 Motion had been denied (on 4-2913), that the conviction was procured exclusively utilizing false
evidence.
ARGUMENT
Free-standing “ actual innocence” claim”
Indictment Counts 3 & 4
The Petitioner is factually and legally innocent under Counts 3 & 4 of the
Indictment - charging possession of child pornography - because l) the Indictment,
on its face, fails to allege a federal criminal offense, 2) no child was depicted, or
participatory, in the production of the subject photographs, and 3) the creation or
production of the subject photographs was not integral to conduct that itself
violated any then-defined federal criminal statute.
There would appear to be no greater justification for authorizing a freestanding “actual innocence” claim than to exonerate a person who has been charged,
convicted, and incarcerated for conduct that is not criminal.
Federal courts have the jurisdiction to determine whether or not they have
jurisdiction. See, Lively v. Wild Oats Markets, Inc, 2006 WL 3425193, n.2. (2006)
and U.S. v. United Mine Workers ofAmerica 330 U.S. 258, 290, 67 S.Ct. 677, 91 L.
Ed. 884 (1947). Subject matter jurisdiction cannot be waived. See Wellness Intern.
Network, Ltd. v. Sharif, 575 U. S. 665,135 S.Ct. 1932, 1956 (2015): Mitchell v.
Maurer, 293 U.S. 237, 244, 55 S.Ct. 162, 79 L.Ed. 338 (1934). The federal courts
lack subject matter jurisdiction when the alleged wrongful conduct is insufficient to

5 A Bankruptcy Court minute record and transcript of the related hearing [Appendices. J & M] as to
one theory of culpability and the (3) three separate court decisions (see footnote 2), as to the
remaining theory of culpability.
21

set forth a federal criminal offense. See Buggs v. U.S., 153 F.3d 439, 444 (CA7,
1998); Corcoran v. Sullivan, 112 F.3d 836, 838 (7th Cir.1997); and Johnson v.
United States, 805 F.2d 1284, 1288 (7th Cir.1986).
A challenge to the court’s subject matter jurisdiction — including the failure of
an Indictment to charge an offense - may be made at any time, including at the
appellate and/or post-conviction stages. See U.S. v. Whaley, 830 F.2d 1469, 1476
(CA7 1987); United States v. Mosley, 786 F.2d 1330, 1334 (7th Cir.), cert, denied,
U.S.

, 106 S.Ct. 2919, 91 L.Ed.2d 548 (1986); and United States v. Esposito, 771

F.2d 283, 288 (7th Cir. 1985), cert, denied, 475 U.S. 1011, 106 S.Ct. 1187, 89 L.Ed.2d
302 (1986).
A conviction and punishment for an act that the law does not make criminal
inherently results in a complete miscarriage of justice and presents exceptional
circumstances that justify collateral relief. See Welch v United States, 136 S.Ct.
1257, 1266, 194 L.Ed. 2d 387 (2016); Chiro v. Summerlin, 542 U.S. 348, 352 (2004);
Bousley v. U.S., 523 U.S. 614, 118 S.Ct. 1604, 140 L.Ed.2d 828 (1998); United States
v. Lanier, 520 U.S. 259, -n. 6, 117 S.Ct. 1219 1226, 137 L.Ed.2d 432 (1997); and
Davis v. United States All U.S. 333, 346*347, 94 S.Ct. 2298, 41 L.Ed.2d 109 (1974).
Here, under Counts 3 & 4 of the Indictment [Appendix-J], charging
possession of child pornography under 18 U.S.C. §2252A(a)(5)(B), there are two
primary bases supporting a free-standing “actual innocence” claim, a jurisdictional
pleading defect and evidentiary defects.
Jurisdictional pleading defect22

First, the Indictment.[Appendix-J], on its face, at f 1, alleges the following as
a violation of 18 USC §2252A(a)(5)(B):
“In 1974, GARY PEEL, took sexually explicit photographs of his then-wife’s
16 year old sister, D.R. GARY PEEL retained those pictures until 2006.”
But, in 1974, the federal age of consent was 16. Accordingly, the Indictment, on its
face, alleges the victim to be an adult when the subject photographs were produced
(the sine qua non of the charging statute). Congress first established 16 as the age
of consent for sexual activity in 1889. See 20 Cong. Rec. 997, as recognized by the
Supreme Court in Williams v United States, 327 U.S. 711, 90 L.Ed. 962 (1946).
Congress’ first child pornography statute was enacted in 1978 (4 years after the
events charged in the Indictment). The Protection of Children Against Sexual
Exploitation Act of 1977, Pub. L. No. 97-225, 92 Stat. 7 (1978) criminalized the
“production”, but not the “possession,” of child pornography. In that Act, a minor
was still defined as a person under the age of 16. The federal age of consent was
first raised from 16 to 18 in 1984 when Congress enacted the Child Protection Act
of 1984, Pub. L. No. 98-292, 98 Stat. 204 - ten (10) years after the events alleged in
the Indictment. By then, in 1984, the victim, here was at least 26 years of age, i.e.
still an adult. Possession of child pornography was not criminalized until 1990 with
the passage of the Child Protection Restoration and Penalties Enforcement Act of
1990, Pub. L. No. 101-674, Title III, 104 Stat. 4816. By then, the alleged “victim,”
here, was at least 30 years of age, i.e. still an adult.6

6 When the Petitioner was indicted, in 2006, (the date of "possession"), the alleged "victim" was at least 46 years
of age - still an adult. Never, at any relevant time from 1974 to the present has the alleged "victim," D.R. been a
minor by federal definition.
23

Without allegations in the Indictment asserting that the “victim” was a minor
at that time of “production,” no federal criminal offense is charged. Without the
allegation of a federal criminal offense, there simply is no federal subject matter
jurisdiction, and the conviction can be vacated pursuant to a motion filed at any
time.
Evidentiary defects:
The Indictment’s subject matter jurisdictional defect was reaffirmed by the
evidenced introduced at trial. Specifically, the court took judicial notice, [Appendix-F]
confirming that 16 was the age of consent for sexual activity in 1974.7

The charging statute’s affirmative defenses [18 U.S.C, §2252A(c) and (c)(2)] —
not noticed or raised by trial defense counsel8 - provide that it is a defense if the
person depicted in the photographs “(l)...was an adult at the time the material was
produced or (2) the alleged child pornography was not produced using any alleged
minor or minors.”
Donna Rodgers testified at trial that she was born on 7-17-57 (making her at
least 16, if not 17, years of age in 1974) and that she was 16 years of age when the
subject photos were produced. [Appendix-K]
In Williams v United States 327 U.S. 711, 90 L.Ed.962 (1946), the Supreme Court held that
the Assimilated Crimes Act (18 U.S.C. §13) cannot be utilized to borrow state (age of minority)
statutes when there is a federally defined criminal offense See also Lewis v United States 523 U.S.
155, 118 S.Ct. 1135, 140 L.Ed.2d 271 (1998).
incredulously, and in apparent disregard of a) the charging statute’s specific production date
language, b) the affirmative defense language, c) the definitional language at 18 USC §2256(8), and
d) the language of the applicable Seventh Circuit’s jury instruction, the trial court added, without
explanation to the jury, that “This is not an issue in this case.” This declaration lessened the
government’s burden of proof (an ex post facto violation) and eliminated the defendant’s affirmative
defenses (also an ex post facto violation and a due process violation), thereby further tainting the
convictions on Counts 3 & 4.
8 Another Strickland violation.
24

Because there was no child pornography statute in 1974, the consensual
sexual affair between two consenting adults (Petitioner and “D.R.”) the production
of the subject photographs was not integral to any then-defined federal criminal
offense as required to support a child pornography conviction9. See Ashcroft v Free
Speech Coalition, 535 U.S. 234, 239-240, 152 L.Ed.2d 403 (2002).

The Court Record is VOID of any evidence suggesting that Donna Rodgers
[“D.R.” in the Indictment], was a minor, by applicable federal definition, in 1974
(over 47 years ago), when she voluntarily posed in the nude, as an adult, with First
Amendment freedom of expression rights.
Legal Argument
1. In Ashcroft v Free Speech Coalition, 535 U.S. 234, 239-240, 152 L.Ed.2d 403
(2002), this Court held unconstitutional both §2256(8)(D) [adults who look
like minors language] and §2256(8)(B) [computer generated, virtual child
pornography] and observed that
“The CPPA [Child Protection Act of 1996] extends the federal
prohibition against child pornography to sexually explicit images that
appear to depict minors but were produced without using any real
children. The statute prohibits, in specific circumstances, possessing or
distributing these images, which may be created by using adults who
look like minors or by using computer imaging. The new technology,
according to Congress, makes it possible to create realistic images of
children who do not exist” [Emphasis, by italics, supplied.]

9 While the consensual affair was morally offensive, it wasn’t a crime and therefore should not taint
this legal analysis.
25

2. In finding the challenged statutory language unconstitutional, as overbroad,
and as an abridgement of the free speech clause of the First Amendment - for
both definitions, this Free Speech Coalition Court, at 241, observed that“In contrast to the speech in Ferber, speech that itself is the record of
sexual abuse, the CPPA prohibits speech that records no crime and
creates no victims by its production.”
The failure of the Seventh Circuit to follow Supreme Court precedent — in
United States v Peel, [595 F.3d 763 (7th Cir. 2010)] - places that Court in
direct conflict with Supreme Court precedent and jeopardizes hierarchical
stare decisis.
3. On 4-30-03, in response to the Supreme Court’s decision in Ashcroft v Free
Speech Coalition, above, Congress codified and passed the affirmative
defenses at 18 U.S.C. §2252A(c)(l) and (c)(2). These affirmative defenses applicable in Petitioner’s trial - provided as follows“(c) It shall be an affirmative defense to a charge of violating
paragraph (l), (2), (3)(A), (4), or (5) of subsection (a)that (l)(A) the alleged child pornography was produced using an
actual person or persons engaging in sexually explicit conduct;
and
(B) each such person was an adult at the time the material
was produced; or
(2) the alleged child pornography was not produced using any
[All emphasis supplied.]10
alleged minor or minors.”

10 The definitional statute, 18 U.S.C. §2256(8) [Exh. 34], provides, in relevant part, as follows:
“(8) ‘child pornography’ means any depiction, including any photograph...of sexually explicit conduct, where - (A) the
production of such visual depiction involves the use of a minor engaging in sexually explicit conduct....” [All
emphasis supplied.]
26

4. The FEDERAL JURY INSTRUCTIONS for the Seventh Circuit provide the
following juiy instruction with regard to the AFFIRMATIVE DEFENSE to
charges under 18 U.S.C. § 2252A(a)(5)(B), to wit-'
“If the defendant proves that it is more likely than not that the alleged
child pornography was produced using actual adults at the time the
material was produced, then you should find him not guilty of
possessing child pornography.” [All emphasis supplied.]
5. In the absence of a real-fife minor and contemporaneous criminal activity in
1974 - at the time of production - the photographs (their production, initial
possession, and continuous possession) remain constitutionally protected free
speech.
6. The Seventh Circuit’s decisions at [595 F.3d 763 (7th Cir. 2010) and 668 F.3d
506 (7th Cir. 2012) are in direct conflict with this Court’s precedent
established in Ashcroft v Free Speech Coalition, 535 U.S. 234 (2002), and are
inconsistent with the First Amendment, i.e. the government cannot ban nonobscene materials that do not depict actual children, (and therefore, are not
intrinsically related to the sexual abuse and exploitation of children).
7. In fight of the Indictment’s language and the uncontroverted evidence that
the subject of the photographs was a 16-year-old “adult,” when the photos
were produced in 1974” the conviction of Petitioner on Counts 3 & 4 runs
afoul of the First Amendment “Free Speech” clause, the Supreme Court’s
decision in Free Speech Coalition, and the charging statute with its

27

affirmative defense language at 18 U.S.C. §2255(c)(l) — eff. 4-30-03.11 Unlike
the images in New York vFerber, 458 U.S. 747, 759, 102 S.Ct. 3348, 73
L.Ed.2d 1113 (1982), Petitioner’s photographs never were, “intrinsically
related to the sexual abuse or exploitation of children.” And, like the images
in Free Speech Coalition, the forty-year-old Polaroid photos that Petitioner
possessed “recordted] no crime” and “create[d] no victims by [their]
production,” in 1974. See 535 US. at 250. Accordingly, their continued
possession cannot be banned or criminalized consistent with the First
Amendment.
The U. S. Const., Fourteenth Amendment (Equal Protection Clause) is
violated, with regard to Counts 3 & 4. After Free Speech Coalition (2002) and
Congress’ 2003 addition of affirmative defenses (c)(l) and (c)(2) to 18 USC
§2252A, when Petitioner is the only person in the entire United States who
has been federally prosecuted and incarcerated for possessing non-obscene
pornographic materials depicting only an adult at the time the subject
materials were produced. See Adarand Constructors v Pena 515 U.S. 200,
214, 132 L.Ed.2d 158, 174 (1995); Bolling v Sharpe 347 U.S. 497, 500, 98
L.Ed.2d 884, (1954); and Hurd vHodge 334 U.S. 24, 35, 92 L.Ed.2d 1187

11 In Petitioner’s first direct appeal [595 F.3d 763, 769 (7th Cir. 2010)], the Seventh Circuit erroneously relied upon United States
v. Bateman, 805 R.Supp. 1053, 1055 (D.N.H.1992) and United States v. Porter, 709 F.Supp. 770, 774 (E.D.Mich.1989), afFd,
895 F.2d 1415 (6th Cir. 1990). To the extent applicable here, both were impliedly overruled, sub silencio, in Ashcroft v Free
Speech Coalition 535 U.S. 234 (2002)..Bateman and Porter, and their precedential value, if any, was also effectively eviscerated
when Congress on 4-30-03 added the affirmative defenses, at (c)(1) and (c)(2) and simultaneously deleted §2256(8) (D) from the
definitions statute, (14 and 17 years, respectively, after Porter and Bateman were decided).

28

(1948). The Equal Protection Clause, inter alia, prohibits the singling out of
a person for different treatment, or for no rational reason. Village of
Willowbrook v Olech 528 U.S. 562, 564, 120 S.Ct. 1073, 145 L.Ed.2dl060
(2000). Here, the petitioner shows that his conviction for possessing child
pornography violates the Equal Protection Clause in two respects. In one, he
is a member of a suspect class, and in the other, he qualifies as a class of one.
The Supreme Court has held that in matters involving alleged
violations of equal protection under the law, one must show that a
fundamental right is at stake. See Bolling v Sharpe 347 U.S. 497, 499-500,
98 L.Ed.2d 884 (1954). The fundamental rights at stake here are the freedom
from criminal prosecution, the failure of due process (the Fourteenth
Amendment), disparate treatment (the Equal Protection Clause), freedom
from ex post facto application of the law, and freedom of expression under
the Bill of Rights.
Additionally, the Fifth Amendment “takings clause” is violated here by
the criminalization of the uses and activities associated with the previously
legally acquired property. See Andrus vAllard, 444 U.S. 51, 62 L.Ed.2d 210
(1979).
Art. I, Sec. 9, Cl. 3, the Ex Post Facto Clause was violated, here, by the
trial court’s judicial notice (Appendix-F) and the government’s retroactive or
retrospective alteration of the alleged “victim’s” adult status (in 1974) to that
of minority status (in 2006) after Congress enacted the Child Protection

29

Restoration and Penalties Enforcement Act of 1990. See Calder v Bell 1 L.Ed.
648, 3 Dali 386, 390 (1798); Beazell v Ohio 269 U.S. 167, 169, 70 L.Ed.216,
(1925); Collins v Youngblood 110 S.Ct. 2715, 2718-19 (1990); and Metrish v
Lancaster 569 U.S.

, 133 S.Ct. 1781, 185 L.Ed.2d 988 (2013). The general

rule in determining whether an ex post facto violation has occurred is to see if
there was any crime or punishment when the act took place, and if such act
was later made criminal. Weaver v Graham 450 U.S. 24, 30, 67 L.Ed.2d 217
(1981). This is on all fours with what happened here. In 1974, when the
photographs were first produced and first possessed, and continuously
thereafter possessed, no crime was committed. The previously legal
possession, innocent when done in 1974, was later made criminal and served
as the basis for Petitioner’s prosecution and conviction on Counts 3 & 4.
Even a California District Court Judge recognized this as an ex post facto
violation. In United States vMeyer, 602 F. Supp. 1476 (1984) the court
rejected the government’s “continuing series of criminal activity” argument,
found that “Minor #2 was not a minor by the Act’s definition when the
depictions of him were produced,” i.e. it was not a crime to produce the
subject photos in June 1983, and found that a punishment was being
imposed for an act that was not punishable at the time it was committed.
This California Court’s ex post facto clause analysis mirrors the arguments
here presented by Petitioner.

30

The Fifth Amendment “Due Process” Clause is also violated here by
the fundamentally unfair utilization of non'criminal conduct and/or false
evidence to procure a conviction. See Lisenba v California 314 U.S. 219,
2236, 86 L.Ed. 166 (1941). See also Colorado v Connelly 479 U.S. 157, 167,
93 L.Ed.2d 473 (1986). In Apprendi vs New Jersey, 530 U.S. 466, 477 (2000).
this Court held that a jury must find all elements of a crime beyond a
reasonable doubt in order to convict a defendant. Here, by taking judicial
notice of the fact that in 1973 and 1974 the age of consent for sexual activity
was 16, and then instructing the jury that “ This is not an issue in the case,”
[Appendix-F], the trial judge deprived the jury of the opportunity to make
any finding as to the critical element of the crime dealing with whether or not
the alleged “victim” was a minor when the subject photographs were
produced— see the language in 18 USC §2252A [including (c)(l) and (c)(2)]
and 18 USC §2256(8). It is difficult for the Petitioner to articulate a greater
impingement upon his Fifth Amendment due process rights than that of a
trial judge eliminating a portion of the government’s burden of proof and
depriving the defendant of an otherwise available statutory affirmative
defense.
The Seventh Circuit’s rejection of Petitioner’s “grandfather clause”
argument (595 F.3d at 770) invites a due process “fair notice” violation, i.e.
the statute defines the age of minority as of the date of “production,” yet the
seventh circuit, in violation of the rules of statutory construction (see Burgess

31

v United States 553 U.S. 124, 170 L.Ed.2d 478 (2008); Lamie v US. Tr. 540
U.S. 526, 157 L.Ed.2d 1024 (2004) concluded that the statutory words didn’t
mean what they said, but instead the statutory word “production” really
means “date of possession” [in 2006, when the alleged victim was 46 years of
age]. Where is the “fair notice” to Petitioner, or the public, that the statutory
words don’t mean what they say? “Due process protects against judicial
infringement of the ‘right to fair warning’ that certain conduct will give rise
to criminal penalties.” Rose v Locke 423 U.S. 48, 53, 46 L.Ed.2d 185 (1975)
and Rogers v Tennessee 532 U.S. 451, 457, 149 L.Ed.2d 697, 706 (2001). See
also, United States vHarriss 347 U.S. 612, 617, 98 L.Ed.2d 989, 996 (1954)
and Bouie v Columbia 378 U.S. 351, 12 L.Ed.2d 894 (1964).
The “cruel and unusual punishment” clause of the Eighth Amendment
to the Constitution would seem to be violated, by default, every time an
innocent person is wrongly incarcerated.
Free-standing “actual innocence” claim
Indictment Count 1
The Petitioner is factually and legally innocent under Count 1 of the
Indictment - charging bankruptcy fraud, because the government’s a) first theory of culpability was disproven by newly discovered evidence , i.e.
a bankruptcy court pleading, minute record and a transcript of the related
bankruptcy court hearing that were available, but not presented to the jury,
at the time of trial,
b) second theory of culpability was disproven at trial by its own witness, and
c) third, and final, theory of culpability was proven FALSE - by three
separate courts, four (4) years after the jury trial conviction and three (3)
months after Petitioner’s §2255 Motion was denied,.

32

Here, the Petitioner shows that newly discovered and reliable evidence (a
court pleading, a bankruptcy court minute record and a court transcript), not
presented to the jury, now confirms his “actual innocence” as to Count 1 of the
Indictment [Appendix-J]. Petitioner further demonstrates that constitutional
violations led to his conviction on Count 1. Finally, Petitioner exposes that a
fundamental miscarriage of justice exception to his previously barred claims
warrants at least one full unobstructed opportunity to have his constitutional
challenges addressed on their merits in an evidentiary hearing.
Here, as to Count 1, charging bankruptcy fraud, no court has conducted an
evidentiary hearing to determine the merits of Petitioner’s compelling newly
discovered evidence.12 The Seventh Circuit affirmed the District Court's refusal to
examine Petitioner's evidence of “actual innocence” on the basis that he failed to
meet the criteria required by §2255(e), the “savings clause.” [ Appendices D and E]
Unless Petitioner is granted an evidentiary hearing, to demonstrate that his
bankruptcy fraud conviction was procured exclusively via false evidence, his
constitutionally protected due process “fair trial” and other constitutionally
protected rights (including the Eighth Amendment) will be violated.
Under Count 1 (Bankruptcy Fraud), the Government presented three (3)
theories of culpability, (identified in f 4 of the Indictment — Appendix-J). The

12 See footnote 2, attorney Stanton’s letter of 1-11-06 [Appendix-P], the Bankruptcy Court Minute
Record Appendix-G], and the transcript of the related hearing [Appendix-H],

33

second of these was disproven at trial [See Appendices I & P]. The other two have
now been disproven by “newly discovered evidence.”
First
Theory
Petitioner wrongfully
attempted to compel
his first wife to abandon
her objection to discharge.
Now disproven by
“newly discovered
evidence.” A
Bankruptcy Court
minute record, and
transcript of related
hearing [Appendices.-K
& M] - both available at
the time of trial, but not
introduced as evidence
or presented to the jury now proves that the exwife and her attorney
withdrew the objection
to discharge two (2)
weeks prior to any
alleged wrongful conduct
by Petitioner.

Second
Theory
Petitioner opposed the
taking of his second
wife’s deposition by
his first wife’s attorney.
Disproven at trial. The
first wife’s attorney,
Donald Urban, admitted
that Petitioner had
tendered his second wife
for deposition on two
occasions, and that her
deposition was not taken
because the first wife,
and her attorney, Donald
Urban, refused to sign a
bankruptcy court ordered
limited use of
information agreement
as a pre-condition to the
deposition’s taking. [See
Appendices. I & P]

Third
Theory
Petitioner’s bankruptcy
settlement offer to his
first wife was to her
financial detriment13.
Now disproven by “newly
discovered evidence” Four
years after trial, after two
direct appeals and a §2255
Motion, three separate
courts [See Footnote 2]
finally determined that
the ex-wife’s $2,800,000,
bankruptcy claim
[Appendix-Q - presented
to the jury in amount
only] - was FALSE.
Instead ,it was worth
$144,055.63, now proving
that Petitioner’s offer of
settlement [$500,000+](Appendix-O) - was not to
her financial detriment].

With the government’s a) first theory of bankruptcy fraud being now
disproven by newly discovered evidence, i.e. a bankruptcy court minute record and a
transcript of that related hearing (See Appendices J & M)14, referencing the ex-

13 There is no crime in offering someone more money or property than they are legally entitled to receive.
14 With regard to Count 1 of the Indictment, the government alleged that the Petitioner's criminal conduct
occurred on 1-20-06 [Indictment at H 4] or between 1-20-06 and 1-31-06 [Indictment at page 4, first sentence.].
34

wife’s Complaint to Determine Dischargeability of Debts (Appendix-I); b) second
theory of bankruptcy fraud having been disproven at trial by the testimony of
attorney Urban (See Appendix-L) and by the newly discovered evidence of attorney
Steve Stanton’s letter of 1-11-06 (Appendix-P), and c) the third and final theory of
bankruptcy fraud being disproven by newly discovered evidence, i.e. three separate
court decisions (See Footnote 2), there remains no basis, under any theory of
culpabihty, to support any bankruptcy fraud conviction.
In dismissing Petitioner’s habeas petition, the District Court, citing Kramer v
Olson, 347 F.3d 214, 218 (7th Cir. 2003) posited that an “actual innocence” claim,
warranting habeas relief, is established only
a) when a petitioner can “admit everything charged in [the] Indictment but the
conduct no longer amountts] to a crime under the statute (as correctly
understood),” [Appendix-A, p.10], and
b) when there has been “a new statutory interpretation case rather than a
constitutional case,” that “could not have been invoked in his first §2255
motion and that case must apply retroactively.” [Appendix-A, p. 9].
In other words, the District Court rejected a free-standing “actual innocence” claim.
The Seventh Circuit ratified this analysis, [Appendix-E, at p. 3]. This exclusive
avenue of habeas relief [§2255(e)] warrants revisitation because it bars exoneration

However, the 1-6-06 bankruptcy court minute record [Appendix-G], and transcript of that hearing [Appendix-H],
now confirm that Petitioner's ex-wife had voluntarily withdrawn her objection to discharge [11 U.S.C. §727(a)(3)
and (a)(4) - Appendix-1 at H 3] on 1-6-06, two (2) full weeks prior to any alleged criminal conduct by the
Petitioner.
35

to persons who can prove post-conviction actual innocence in the absence of an
admission to a previously defined crime coupled with a new, retroactively applied,
court decision. Examples of persons barred from exoneration because of this
§2255(e) “savings clause” exclusive remedy include persons “actually innocent” as
later proven by DNA, false confessions (e.g. the New York Central Park Five),
mistaken identification, perjury, official/prosecutorial misconduct, false accusation,
and other types of evidence that often prove that no crime was committed, or that
the defendant was not the culpable party. See “The National Registry of
Exonerations”, Michigan State University, College of Law,
www.law-umich.edu/special/exoneration/Pages/Exonerations-in-the-united-statesmap.aspx.
Here, the jury’s reliance upon the later proven false evidence resulted in a
fundamental miscarriage of justice and rose to such an arbitrary and/or prejudicial
level that it rendered the trial fundamentally unfair (depriving the Petitioner of his
Fifth Amendment constitutional right to due process via a “fair trial”). No jury
acting reasonably, would have found the Petitioner guilty of bankruptcy fraud had
the jury been informed
a) that Petitioner’s ex-wife had withdrawn her objection to discharge two full
weeks prior to any alleged criminal conduct on Petitioner’s part, and

36

b) that the ex-wife’s $2,800,000 bankruptcy claim 2-1 [Appendix-Q], as
presented to the jury, in amount only, was blatantly false.15.
The Fifth Amendment “Due Process” Clause is violated here by the
fundamentally unfair utilization of false evidence to procure a conviction on Count
1. See Lisenba v California 314 U.S. 219, 2236, 86 L.Ed. 166 (1941) and Colorado v
Connelly 479 U.S. 157, 167, 93 L.Ed.2d 473 (1986).
The absurdity of the District Court’s approach, requiring an admission of
guilt, is demonstrated by the hypothetical case of a man, charged, and convicted, of
a federal rape or murder (with no body being found), who is later scientifically
exonerated by DNA evidence, or the discovery that the “murdered victim” was
actually alive and living elsewhere under an assumed name. Under the District
Court’s analysis, affirmed by the Seventh Circuit, this man could not establish
“actual innocence” because he could not truthfully “admit” that he had committed
the rape or the murder of the living person.
Contrary to the decisions here by the District and Appellate courts,
[Appendices A, B, C, D, and E], Calderon v Thompson 523 U.S. 538, 558-559, 118
S.Ct. 1489, 1503, 140 L.Ed.2d 728 (1998) makes clear that, in state cases, the “new
rules of constitutional law made retroactive by the Supreme Court” is NOT the
exclusive avenue for relief from a wrongful conviction. Instead, Calderon
[referencing §2244(b)(2)(B)], acknowledges that a habeas petition may also be

15 The jury was also deprived of the evidence that her filing of a false bankruptcy claim is itself a felony under 18
U.S.C. §152(4). With that additional information, the jury could well have found that the ex-wife, rather than
Petitioner, was the person guilty of bankruptcy fraud.
37

supported, at least in state prosecutions, by [newly discovered] facts underlying the
claim that establishes actual innocence by clear and convincing evidence. Denying
that same benefit to a similarly prosecuted federal prisoner just lacks common
sense because the harm and the evidence of innocence are the same. Only the venue
is different.
It is this latter avenue that Petitioner pursues under Count I of the
Indictment, i.e. his is a free-standing “actual innocence” claim, buttressed with
reliable “newly discovered evidence” [a Bankruptcy Court Minute Record, a
transcript of the related hearing, and the 1-11-06 letter of attorney Stanton
(Exhibits J , M and P) plus the decisions of three different courts],16 concluded four
(4) years after trial and buttressed by multiple constitutional violations that have
never been addressed in a merits evidentiary hearing.
Unless free-standing “actual innocence” claims are permitted in federal non­
capital cases, the restrictions imposed by time, procedure, and/or the rule of
retroactively applied new court decisions will continue to result in the lengthy and
wrongful incarceration of actually innocent federally convicted persons.
With regard to the bankruptcy court minute record, the District Court,
[Appendix-A, p.ll] tacitly affirmed by the Appellate Court [Appendix-D. p.3], held
that the 1-6-06 Bankruptcy Court minute record is not “newly discovered evidence”
because it was “available” at the time of trial [though not utilized or presented to

16 See footnote 2.
38

the jury.] This conflicts with settled case law. Even within the Seventh Circuit that, for habeas purposes, all evidence not shown to the jury is “newly discovered
evidence,” whether or not it was “available” at the time of trial. See the Seventh
Circuit’s decision, in Jones v Calloway, 842 F.3d 454, 461-462 (CA7, 2016):
«<

New evidence’ in this [habeas] context does not mean ‘newly discovered
evidence’; it means evidence that was not presented at trial.”
To the same effect, see the Supreme Court cases of House vBell 547 U.S. 518, 537,
126 S.Ct. 2064, 165 L.Ed.2d 1 (2006); Calderon v Thomson 523 U.S. 538, 559, 118
S.Ct. 1489, 1503, 140 L.Ed.2d 728 (1998); Schlup vDelo§Y6 U.S. 298, 324, 130
L.Ed.2d 808, 115 S.Ct. 851, 865 (1995); and the Seventh Circuit cases of Thomas v
Wilhams 822 F.3d 378, 387 (CA7, 2016); Gladney v Pollard 799 F.3d 889, 898-899
(CA7, 2014); and Gomez vJaimet 350 F.3d 673, 679 (CA7, 2003).
Additionally, the District Court -[Appendix-A, p. 12] - affirmed by the Seventh
Circuit — [Appendices'D & E] — held that*
“...all of Peel’s claims herein either were, or could have been, brought within
the structured framework of §2255 or in a direct appeal and therefore cannot
be properly reviewed under §2241.”
This statement is belied by the following. The falsity of the ex-wife’s claim was not
confirmed by the Seventh Circuit until 8-2-13 (725 F.3d 696). That false claim issue
could not have been presented on direct appeal, as there existed no evidentiary
basis for same in the court record and the direct appeal was already decided three
and a half years earlier on 2-12-10 (595 F.3d 763). And Petitioner’s §2255 Motion
(filed 3-29-12) was already denied on 4-21-13, more than three (3) months priorto
the falsity of the ex wife’s claim being finally confirmed by Seventh Circuit on 8-2*
39

13 (725 F.3d 696). Petitioner’s second attempt at §2255 relief, (filed 10-6-15) and
“implied” third attempt (filed 7-25-16) were both denied. See “Statement of Case,”
above.
Additionally, the District Court analysis presumes that the public policy factors
described in this Court’s precedential opinion of McQuiggia v Perkins 569 U.S. 383,
185 L.Ed.2d 1019, 1025, 1331-1332 (2013) simply do not apply in federal non-capital
cases. McQuiggin held that a state petitioner’s right to pursue his claim of actual
innocence exists 1) despite any conditions or restrictions imposed by AEDPA, 2)
even in the absence of showing of cause for procedural default, 3) even if the relief
sought is through a second or successive petition, 4) even if there is a procedural bar
to the claim17.
The §2241 “actual innocence” remedy is compelled here because it is the only
remaining remedy for a wrongful federal conviction. As stated in McQuiggin, at 392
and 193 D
“In other words, a credible showing of actual innocence may allow a prisoner
to pursue his constitutional claims (here, ineffective assistance of counsel) on
the merits notwithstanding the existence of a procedural bar to relief. “This
rule, or fundamental miscarriage of justice exception, is grounded in the
‘equitable discretion’ of habeas courts to see that federal constitutional errors
do not result in the incarceration of innocent persons.” Herrera, 506 U.S., at
404, 113 S.Ct. 853.

17 In adopting the District Court’s analysis, the Seventh Circuit [Appendix-D, page 3], recognized the
precedential significance of McQuiggin in holding that procedural impediments are removed in state
habeas cases. Notwithstanding the Seventh Circuit’s recognition that public policy favors the
exoneration of state petitioners armed with “compelling proof of factual innocence,” that very same
Court rejected the very same public policy analysis when confronting the very same compelling proof
of factual innocence when presented by a federal habeas petitioner. This is a distinction without a
valid difference and a violation of the Equal Protection clause. In one case the innocent (state)
person is exonerated because he is “actually innocent,” while in the other, the innocent (federal)
person is not exonerated while possessing the exact same proof of “actually innocence.”
40

CONCLUSION
For the foregoing reasons, this Court should l) grant the Petition for Writ of
Certiorari,’ 2) appoint counsel, admitted to the Supreme Court Bar, to represent the
Petitioner’s interests; and provide such other relief as this Court deems appropriate.
Respect:
/

GaryJL Peel, pro se
9705'(Rear) Fairmont Road
Fairview Heights, IL 62208
Garvepeel@Hotmail.com
(Cell)
618-514-7203

Date- July 12, 2021

41

APPENDIX
APPENDIX A

Peel v Koechner Dist. Ct. No. 17-cv-1045'SMY
Memorandum and Order (11-16-17)

APPENDIX B

Peel v Koechner Dist. Ct. No. 17-cvl045-SMY
Judgment in a Civil Case (11-16*17)

APPENDIX -C

Peel v Koechner Dist. Ct. No. 17-cvl045-SMY
Memorandum and Order (7-18*18)

APPENDIX D

Peel v Zarrick

(7th Cir. Case No. 18*2732 decided 6-4-21)
APPENDIX -E

Peel v Zarrick
(7* cir. Case No. 18*2732)
(Panel & en banc re-hearing denied on 6*30-21)

APPENDIX -F

Transcript of “Judicial Notice” in the criminal trial of
United States v Peel [So. Dist. of IL
Case No. (06-CR-30049)]

APPENDIX -G

Bankruptcy Court Minute Record of 1*6-06

APPENDIX -H

Transcript of Bankruptcy Court Hearing of 1-6-06.

APPENDIX-I

Complaint to Determine Dischargeability of Debts

APPENDIX J

Indictment in the criminal trial of United States
v Peel [So. Dist. of IL Case No. (06-CR-30049)]

APPENDIX -K

Partial Transcript of the testimony of Donna Rodgers
(“D.R.” in the Indictment) in the criminal
trial of United States v Peel [So. Dist. of IL
Case No. (06-CR-30049)]

APPENDIX L

Partial Transcript of the testimony of Attorney Donald
Urban in the criminal trial of United States v Peel
[So. Dist. of IL Case No. (06-CR-30049)]

APPENDIX M

Partial Transcript of the testimony of Attorney Laura
Grandy in the criminal trial of United States v Peel [So.
Dist. of IL Case No. (06-CR-30049)]

APPENDIX - N

Partial Transcript of the Closing Argument of Asst. U. S.
Attorney Kevin Burke in the criminal trial of United
States v Peel [So. Dist. of IL Case No. (06-CR-30049)]

42

APPENDIX - O

Partial Transcript of the testimony of Deborah J. Peel
in the criminal trial of United States v Peel [So. Dist. of
IL [Case No. (06-CR-30049)]

APPENDIX-P

Attorney Steve Stanton’s letter of 1-11-06 to Attorneys
Donald Urban and Donald Samson

APPENDIX - Q

Deborah J. Peel’s (ex-wife’s) Bankruptcy Claim 2-1

APPENDIX -R

[Chart of Appellate] Court Decisions in Conflict

43

■Hs.

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 1 of 13 Page ID #451

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
GARY E. PEEL,
Petitioner,
vs.
JOHN M. KOECHNER,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 17-cv-1045-SMY

MEMORANDUM AND ORDER
YANDLE, District Judge:
Petitioner Gary Peel, who is currently serving a 3-year term of supervised release after
having served the required period of incarceration pursuant , to his 144-month sentence, brings
this habeas corpus action pursuant to 28 U.S.C. § 2241, challenging the constitutionality of his
conviction and sentence.
This case is now before the Court for a preliminary review of the Petition pursuant to
Rule 4 of the Rules Governing Section 2254 Cases in United States District Courts. Rule 4
provides that upon preliminary consideration by the district court judge, “[i]f it plainly appears
from the petition and any attached exhibits that the petitioner is not entitled to relief in the
district court, the judge must dismiss the petition and direct the clerk to notify the petitioner.”
Additionally, under Rule 1(b), the district court is authorized to apply the rules to other habeas
corpus cases, such as this action under 28 U.S.C. § 2241. After carefully reviewing the Petition,
this Court concludes that this action is subject to dismissal.

A

1

APPENDIX-A
\

,

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 2 of 13 Page ID #452

Procedural Background
Peel was convicted by a jury in this Court of bankruptcy fraud, obstruction of justice and
possession of child pornography. He was sentenced to a term of 144 months incarceration on
November 19, 2007. United States v. Peel, Case No. 06-cr-30049-WDS. The facts underlying
his conviction were summarized by the United States Court of Appeals for the Seventh Circuit as
follows:
The events giving rise to this case go back a long way. In 1967 the defendant
married. Seven years later he began an affair with his wife's 16-year-old sister.
In the course of the affair, which lasted several months, he took nude photographs
of her .... In response to her later request for the pictures, he gave her some of
them ... and, without telling her, retained others in a file in his office.
In June 2003 the Peels divorced, and agreed to a marital settlement. The
following year Peel filed suit in an Illinois state court to vacate the settlement.
The year after that he filed for bankruptcy and asked the bankruptcy court to
discharge the financial obligations to his ex-wife that the settlement agreement
had imposed. She opposed the discharge and filed a claim for the money that he
owed her under the settlement. . . . [H]is debt to her under the settlement
probably was not dischargeable in bankruptcy under the Bankruptcy Code as it
then read, [citations omitted] (Under the current Code, it almost certainly would
not be dischargeable, [citations omitted].) So he had to persuade her to drop the
claim.
Negotiations looking to compromise it were predictably acrimonious and in the
course of them the defendant told her about the nude photographs of her sister and
said that “these would be ... an item that would likely get out into the public if
we didn’t stop this escalating battle of putting things in the newspaper.” He
backed up his threat by placing photocopies of the photographs in her mailbox.
She complained to the police and later to federal authorities, and at their direction
made recorded phone calls to the defendant. The conversations confirmed that he
was blackmailing her with the photographs. He faxed her a draft of a settlement
agreement that she had previously rejected, adding a provision requiring him to
return certain unidentified photographs to her. They met and he showed her the
originals. The meeting was recorded, and included an exchange in which she
said: “So you resort to blackmailing me?” He replied: “There's nothing left. I'm
down to: no kids; no grand-kids; no money.” “And, so,” she responded,
“blackmailing me with photographs .... Okay, but as long as I go ahead and
sign these settlement agreements . . . .” He replied: “Right then you have . . . .”
And she: “.. . you'll give me the photographs . .. .” And he: “On the spot.”

2

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 3 of 13 Page ID #453

United States v. Peel, 595 F.3d 763, 765-66 (7th Cir. 2010).
On remand after direct appeal, this Court dismissed the conviction for obstruction of
justice, recalculated the amount of the intended loss relevant to the bankruptcy fraud,
recalculated the applicable guideline sentencing range and resentenced Peel to 144 months
(which included consecutive sentences of 24 months for bankruptcy fraud and 102 months for
possession of child pornography). That sentence was affirmed on appeal from the Amended
Judgment. United States v. Peel, 668 F.3d 506 (7th Cir. 2012).
In both the first and second appeals, Peel contested the criminality of his possession of
the nude photographs of the then-16-year-old minor. The appellate court rejected his contention
that the photos should not be characterized as “child pornography” in 2005-2006, because at the
time he took them in 1974, the statute under which he was convicted had not yet been enacted
and the photos were not illegal when they were taken. The child pornography statute was
amended in 1984 to provide that a minor under age 18 was a “child,” thus criminalizing Peel’s
possession of the photos when he was charged and convicted. Noting that Peel had forfeited this
argument because he did not raise it at trial, the Seventh Circuit nonetheless addressed the merits
and rejected Peel’s argument that his possession of the originally-legal pictures should be
“grandfathered” and that he should not be subject to prosecution under the amended version of
the statute. Peel, 668 F.3d at 509 (citing Peel, 595 F.3d at 770).
In that second appeal, Peel also argued that his punishment for illegally possessing child
pornography that was legal when he created it violated the First Amendment’s free speech clause
and the Ex Post Facto clause of Article I of the Constitution. Peel, 668 F.3d at 510. The
Seventh Circuit found both arguments frivolous and noted that Peel forfeited the arguments
because he failed to raise them in his first appeal.

3

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 4 of 13 Page ID #454

Since the dismissal of his second appeal, Peel has brought a series of collateral attacks on
his conviction and sentence. On April 29, 2013, this Court denied his request to vacate, set aside
or correct his sentence pursuant to a 28 U.S.C.A § 2255 petition, in which Peel claimed that he
was denied the effective assistance of counsel. Peel v. United States, Case No. 12-cv-275-WDS;
(Doc. 4, p. 23; Doc. 4-2, pp. 1-22). The claims of ineffectiveness included Counsel’s failure to
present his statutory and constitutional challenges to the child pornography statute at trial. This
Court found no merit to Peel’s claims that his attorneys were ineffective for failing to raise due
process, First Amendment, equal protection and ex post facto arguments. (Doc. 4-2, pp. 5-9).
On May 11, 2014, Peel filed a habeas petition under 28 U.S.C. § 2241 in the Eastern
District of Kentucky. Peel v. Sepanek, Case No. 14-cv-77, 2014 WL 3611151 (E.D. Ky.); (Doc.
4-1, pp. 70-75).

He raised arguments that the child pornography statute (18 U.S.C.

§ 2252A(a)(5)(B)) violates the Equal Protection Clause, the Due Process Clause, the Ex Post
Facto Clause and the Eighth Amendment.

He also contended that he should have been

sentenced under a lower guideline range based on newly-discovered evidence that establishes a
lower value for the photographs he had possessed. Peel v. Sepanek, Case No. 14-cv-77, 2014
WL 3611151, at *2 (E.D. Ky. July 21, 2014). The court denied habeas relief, finding that Peel’s
claims could have been brought on direct appeal or in his initial § 2255 challenge. As such, they
did not fall within the narrow scope of the “savings clause” found at 28 U.S.C. § 2255(e) and
could not be brought under § 2241. Peel v. Sepanek, 2014 WL 3611151, at *3.
Peel next sought permission from the Seventh Circuit to bring a second/successive
§ 2255 petition to challenge the calculation of his intended loss, which if successful, would
reduce his offense level. Peel v. United States, No. 15-3269 (7th Cir.); (Doc. 4-1, pp. 63-64).
This application was denied because Peel had already challenged the intended loss calculation on

4

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 5 of 13 Page ID #455

direct appeal and in his first § 2255 petition.
On December 4, 2015, Peel filed a “Motion to Reform Judgment and Sentence under
Rule 60(b)” in this Court. It was ultimately denied as untimely (Doc. 4-1, pp. 58-59).
Another attempt by Peel to obtain authorization for a successive collateral attack was
rejected by the Seventh Circuit on April 11, 2016. Peel v. United States, No. 16-1665 (7th Cir.);
(Doc. 4-1, pp. 60-62).

Peel attempted to challenge his conviction for possession of child

pornography, but the court found that his arguments merely mirrored the arguments that were
rejected in his direct appeal, and were therefore not cognizable in a successive § 2255
proceeding. (Doc. 4-1, p. 61). As to the bankruptcy fraud conviction, Peel argued that the
“bankruptcy court’s rejection of his ex-wife’s claim undermines his fraud conviction.” Id. The
court reasoned, however, that “the bankruptcy court’s decision does not implicate Peel’s
innocence as required by § 2255(h)(1).

Rather, the conviction is based on Peel’s blackmailing

of his ex-wife in an attempt to get her to drop the bankruptcy claim before the bankruptcy court’s
ruling.” Id.
On July 25, 2016, Peel filed a motion in his criminal case, invoking Rule 60(d)(3) and
seeking to set aside the Amended Judgment for fraud upon the Court. (Doc. 4, p. 24). The
purported fraud was an allegedly false claim in the amount of $2,800,000 by attorney Donald W.
'y

Urban in the bankruptcy court, which was then “perpetuated” m the criminal trial. (Doc. 4-1, p.
55; Doc. 253, p. 1 in criminal case). This Court found Peel’s argument to be without merit and
denied the motion. (Doc. 4-1, p. 57; Doc. 253, p. 3 in criminal case).
1 Section 2255(h)(1) allows an appellate court to authorize a successive § 2255 motion if it presents:
“newly discovered evidence that, if proven and viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing evidence that no reasonable factfinder would have found
the movant guilty of the offensef.]”
2 This claim in the bankruptcy court was for funds that Petitioner owed to his ex-wife under the terms of
their divorce settlement. The value of her claim was eventually determined to be substantially less by the
bankruptcy court. (See Doc. 4-1, pp. 56-67).
5

,

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 6 of 13 Page ID #456

Peel filed an appeal and on December 7, 2016, the Seventh Circuit vacated this Court’s
Judgment and remanded the matter with instructions to dismiss the motion for lack of
jurisdiction. United States v. Peel, No. 16*3297 (7th Cir.); (Doc. 4-1, pp. 52-54). In his Rule 60
motion, Peel asserted that “newly discovered evidence” regarding the value of the bankruptcy
claim required his bankruptcy fraud conviction to be set aside. He requested that the appellate
court consider his motion on its merits. Id.
The Seventh Circuit found (as argued by Peel on appeal) that this Court should have
construed the Rule 60(d)(3) motion as an unauthorized successive § 2255 motion, which was
subject to dismissal on jurisdictional grounds. United States v. Peel, No. 16-3297 (7th Cir.);
(Doc. 4-1, p. 53). (Doc. 4-1, p. 53). It also noted that even if the change in value of the claim
could be considered “new evidence,” that fact would not be sufficient to establish that no
reasonable factfinder would have found him guilty of bankruptcy fraud. Id.
On January 18, 2017, Peel sought habeas relief in the United States Supreme Court. His
Petition was summarily denied on April 24, 2017. (Doc. 4, p. 24; Doc. 4-2, p. 51).
The Petition
In this action, Peel asserts that he has newly discovered evidence which shows that he is
“actually innocent” of bankruptcy fraud. This “new” evidence consists of:

(1) A Bankruptcy

Court Minute Record (Doc. 4-1, p. 20) that shows his ex-wife “had voluntarily abandoned her
objection to a bankruptcy § 702 discharge two weeks prior to any alleged misconduct by [Peel]”
(Doc. 4, p. 2) (emphasis in original); and (2) Three court orders (one each from the bankruptcy
court, the district court and the appellate court) establishing that his ex-wife’s claim of

6

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 7 of 13 Page ID #457

$2,800,000 was false and was only worth $144,055.63.3 Peel had made settlement offers to his
ex-wife in sums exceeding the lesser amount. The jury was not informed of the ex-wife’s
abandonment of her objection to the discharge or of the falsity of her claim. (Doc. 4, pp. 2, 4146).
As to the conviction for possession of child pornography, Peel claims actual innocence
(on the basis that when the pictures were taken in 1974, the girl in the photographs was not
considered a minor) and asserts that his conviction was in violation of the Free Speech Clause,
the Ex Post Facto Clause, the Due Process Clause (both the “Fair Notice” and the “Takings”
portions) and the Equal Protection Clause. (Doc. 4, p. 3).
In summarizing his previous challenges to the convictions, Peel maintains that his earlier
§ 2241 petition {Peel v. Sepanek, Case No. 14-CV-77 (E.D.. Ky.)) was “denied on procedural
grounds without a decision on the merits.” (Doc. 4, p. 23). Likewise, he asserts that his October
2015 application to the Seventh Circuit (No. 15-3269) to bring a successive § 2255 motion based
on “newly discovered evidence” was “procedurally denied without a decision on the merits.” Id.
Peel makes the same point - that his previous collateral attacks were rejected on procedural
grounds, without ever reaching the merits of his arguments - as to his Rule 60(b) motion of
December 4, 2015 and January 18, 2017 Petition for Writ of Habeas Corpus filed with the
Supreme Court.

(Doc. 4, p. 24).

He argues, he has “never enjoyed the unencumbered

opportunity to have his habeas constitutional challenges addressed on their merits.” (Doc. 4, p.
29).
Peel asserts that a second or successive § 2255 motion is both inadequate and ineffective
to address his claims. (Doc. 4, pp. 25-28). Specifically, he states that the one-year time limit in
3 The Bankruptcy Court order valuing Petitioner’s ex-wife’s claim at $158,455.63 rather than $2,800,000
is included at Doc. 4-1, pp. 36-42. The District Court affirmed that order. The Seventh Circuit later
found the value of her claim to be $144,055.63. In re Peel, 725 F.3d 696 (7th Cir. 2013). (Doc. 4, p. 44).
7

,

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 8 of 13 Page ID #458

28 U.S.C. § 2255(f) would bar a second or successive § 2255 claim based on “newly discovered
evidence”4 because of the time frame he claims that evidence came to light. (Doc. 4, pp. 26-28).
He further argues that no time bar applies because he raises a claim of “actual innocence.” (Doc.
4, pp. 34-35).
As to the bankruptcy fraud conviction, Peel argues that the Bankruptcy Court Minute
Record (Doc. 4-1, p. 20) qualifies as “newly discovered evidence” because, although it was
“available at the time of trial,” it was not presented to the jury. (Doc. 4, p. 38). He further
argues that the bankruptcy, district court and appellate court decisions which allegedly
demonstrate the falsity of the evidence supporting his conviction did not arise until 4 years after
his conviction. Id. Similarly, he claims that the constitutional arguments he now raises against
the child pornography conviction “did not arise until 2-12-10” when the Seventh Circuit issued
its decision on his first direct appeal. (Doc. 4, p. 39).
As relief, Peel requests that this Court vacate his convictions for bankruptcy fraud and
possession of child pornography. (Doc. 4, p. 78).
Discussion
As a general matter, “28 U.S.C. § 2241 and 28 U.S.C. § 2255 provide federal prisoners
with distinct forms of collateral relief. Section 2255 applies to challenges to the validity of
convictions and sentences, whereas § 2241 applies to challenges to the fact or duration of
confinement.” Hill v. Werlinger, 695 F.3d 644, 645 (7th Cir. 2012) (citing Walker v. O’Brien,
216 F.3d 626, 629 (7th Cir. 2000). See also Brown v. Rios, 696 F.3d 638, 640 (7th Cir. 2012);
Valona v. United States, 138 F.3d 693, 694 (7th Cir. 1998).

Here, Peel is attacking his

4 28 U.S.C. § 2255(f) sets forth a 1-year period of limitation for filing an initial § 2255 motion, triggered
by 4 alternative events, with the limitation period to “run from the latest of - (1) the date on which the
judgment of conviction becomes final; ... or (4) the date on which the facts supporting the claim or
claims presented could have been discovered through the exercise of due diligence.”

8

Case 3:17-cv-0l045-SMY Document 11 Filed 11/16/17 Page 9 of 13 Page ID #459

conviction and sentence, which implicates § 2255 as the proper avenue for relief.
Under very limited circumstances, a prisoner may employ § 2241 to challenge his federal
conviction or sentence. 28 U.S.C. § 2255(e) contains a “savings clause” which authorizes a
federal prisoner to file a § 2241 petition where the remedy under § 2255 is “inadequate or
ineffective to test the legality of his detention.” 28 U.S.C. § 2255(e). See Hill, 695 F.3d at 648
(‘“Inadequate or ineffective’ means that ‘a legal theory that could not have been presented under
§ 2255 establishes the Petitioner’s actual innocence.’”) (citing Taylor v. Gilkey, 314 F.3d 832,
835 (7th Cir. 2002)), See also United States v. Prevatte, 300 F.3d 792, 798-99 (7th Cir. 2002).
The fact that a petitioner may be barred from bringing a second/successive § 2255 petition is not,
in itself, sufficient to render it an inadequate remedy. In re Davenport, 147 F.3d 605, 609-10
(7th Cir. 1998) (§ 2255 limitation on filing successive motions does not render it an inadequate
remedy for a prisoner who had filed a prior § 2255 motion). Instead, under § 2241, a petitioner
must establish the inability of a § 2255 motion to cure the defect in the conviction. “A procedure
for postconviction relief can be fairly termed inadequate when it is so configured as to deny a
convicted defendant any opportunity for judicial rectification of so fundamental a defect in his
conviction as having been imprisoned for a nonexistent offense.” Davenport, 147 F.3d at 611.
Following Davenport, in order to trigger the savings clause, a petitioner must meet three
conditions. First, he must show that he relies on a new statutory interpretation case rather than a
constitutional case. Secondly, he must show that he relies on a decision that he could not have
invoked in his first § 2255 motion and that case must apply retroactively. Lastly, he must
demonstrate that there has been a “fundamental defect” in his conviction or sentence that is grave
enough to be deemed a miscarriage of justice. Brown v. Caraway, 719 F.3d 583, 586 (7th Cir.
2013). See also Brown v. Rios, 696 F3d 638, 640 (7th Cir. 2012).

9

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 10 of 13 Page ID #460

The application of the § 2255(e) savings clause was cogently explained to Peel in the
Order dismissing his § 2241 petition in the Eastern District of Kentucky.

Specifically, a

prisoner’s claim of “actual innocence” can only be addressed in the context of § 2241 if the
Supreme Court “re-interprets the substantive terms of the criminal statute under which he was
convicted in a manner that establishes that his conduct did not violate the statute.” Peel v.
Sepanek, Case No. 14-cv-77, 2014 WL 3611151, at *3 (E.D. Ky.) (citing Hayes v. Holland, 473
F. App’x 501, 501-02 (6th Cir. 2012)); (Doc. 4-1, pp. 74-75). The Seventh Circuit takes the
same approach - “actual innocence” is established when a petitioner can “admit everything
charged in [the] indictment, but the conduct no longer amount[s] to a crime under the statutes (as
correctly understood).” Kramer v. Olson, 347 F.3d 214, 218 (7th Cir. 2003).
Peel does not point to any new statutory interpretation case, unavailable at the time of his
initial §2255 motion, that would alter the interpretation of the statutes under which he was
convicted in such a way that his conduct can no longer be considered criminal. Thus, he fails to
meet either of the first two conditions established in Brown, 719 F.3d at 586. As such, even an
assertion of a “fundamental defect” in the conviction (the third Brown condition) is insufficient
to bring Peel’s claim within the savings clause of § 2255(e), and therefore within the realm of
claims cognizable in a § 2241 habeas action.
For his claim that he is “actually innocent,” Peel relies on arguments that he
unsuccessfully presented or attempted to bring in one or more of his earlier challenges. But in
order for a claim to come within the savings clause for consideration in a § 2241 habeas
proceeding, the claim must be one that could not have been brought within the framework of
either an original or successive § 2255 motion. See Hill v. Werlinger, 695 F.3d 644, 648 (7th
Cir. 2012); United States v. Prevatte, 300 F.3d 792, 798-99 (7th Cir. 2002); In re Davenport, 147

10

.

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 11 of 13 Page ID #461

F.3d 605, 609-10 (7th Cir. 1998). Each of Peel’s arguments were or could have been brought
under § 2255, and some were or could have been raised on direct appeal. As such, the claims
cannot now be addressed under § 2241.
Peel’s challenge to his bankruptcy fraud conviction is based in part on the Bankruptcy
Court minute order dated January 6, 2006 (Doc. 4-1, p. 20), which he admits was available to
him at the time of his trial. 5

(Doc. 4-2, pp. 14-15). There is simply no basis for this Court to

construe the minute order as “new evidence” that would be cognizable in a § 2241 habeas action.
The other three court orders on which Peel pins his “actual innocence” claim all relate to
the valuation of his ex-wife’s claim in his bankruptcy proceeding - a claim she continued to
pursue throughout Peel’s criminal proceedings and beyond. In the original § 2255 proceeding,
this Court found that Peel’s ex-wife did not withdraw her opposition to the bankruptcy
proceedings and concluded that the specific amount of her bankruptcy claim was not relevant to
Peel’s guilt or innocence as to the criminal charges, because he was seeking a discharge of his
obligation to her under the marital settlement agreement regardless of the amount. (Doc. 4-2, pp.
14-15). The Seventh Circuit agreed that the devaluation of the ex-wife’s bankruptcy claim was
insufficient to raise a question about the validity of Peel’s conviction when it denied
authorization for a successive § 2255. Peel v. United States, No. 16-1665 (7th Cir. April 11,
2016); (Doc. 4-1, pp. 60-62). The Seventh Circuit reached the same conclusion when Peel filed
the Rule 60(d)(3) motion claiming that he had “newly discovered evidence” on the value of the
bankruptcy claim. United States v. Peel, No. 16-3297 (7th Cir. Dec. 7, 2016); (Doc. 4-1, p. 53).
Against that background, this Court cannot conclude that a structural problem in § 2255
prevented Peel from raising this claim in a § 2255 motion. Thus, the claim cannot be raised in a
§ 2241 action.
5 Peel argued in his § 2255 motion that his attorneys should have introduced the evidence at trial.

11

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 12 of 13 Page ID #462

Turning to Peel’s child pornography conviction, he has previously raised the same
statutory and constitutional challenges on appeal and under § 2255. In the first appeal, the
Seventh Circuit rejected Peel’s argument that the photographs were not illegal when taken in
1974 and therefore should not have been considered child pornography in 2005-06.

United

States v. Peel, 595 F.3d 763, 770 (7th Cir. 2010); see also United States v. Peel, 668 F.3d 506,
510 (7th Cir. 2012). In the second appeal (from the amended judgment), the Seventh Circuit
rejected Peel’s free speech and ex post facto challenges as both frivolous and forfeited. Peel,
668 F.3d at 510.
Peel again raised the statutory argument as well as due process, First Amendment, equal
protection and ex post facto arguments for his claims of ineffective assistance of counsel in his
original § 2255 motion. This Court considered them and found them to be without merit. His
attempt to raise these same arguments in a successive § 2255 motion was rejected because they
had already been raised on direct appeal. Peel v. United States, No. 16-1665 (7th Cir. April 11,
2016); (Doc. 4-1, pp. 60-62). As was true with his bankruptcy fraud challenge, § 2255 provided
a framework for Peel to raise his claims. The fact that his arguments were rejected does not open
the savings clause door for him to now bring them in a § 2241 proceeding.
As noted above, all of Peel’s claims herein either were, or could have been, brought
within the structural framework of § 2255 or in a direct appeal. Therefore, his conviction cannot
properly be reviewed under § 2241 and his Petition must be dismissed.
Disposition
Petitioner Gary Peel’s 28 U.S.C. § 2241 Petition is summarily DISMISSED with
prejudice. All pending motions are DENIED AS MOOT.

12

..

Case 3:17-cv-01045-SMY Document 11 Filed 11/16/17 Page 13 of 13 Page ID #463

If Petitioner wishes to appeal this dismissal, he may file a notice of appeal with this court
within the appropriate time period for his case, as provided in Federal Rule of Appellate
Procedure 4(a). A motion for leave to appeal in forma pauperis (“IFP”) should set forth the
issues Peel plans to present on appeal. See Fed. R. App. P. 24(a)(1)(C). If Petitioner does choose
to appeal and is allowed to proceed IFP, he may be required to pre-pay a portion of the $505.00
appellate filing fee, commensurate with his ability to pay. See Walker v. O’Brien, 216 F.3d 626,
638 n.5 (7th Cir. 2000); Fed. R. App. P. 3(e). An appellant who is granted IFP status still incurs
the obligation to pay the entire appellate filing fee. Thomas v. Zatecky, 712 F.3d 1004, 1004-05
(7th Cir. 2013); Ammons v. Gerlinger, 547 F.3d 724, 725-26 (7th Cir. 2008); Sloan v. Lesza, 181
F.3d 857, 858-59 (7th Cir. 1999); Lucien v. Jockisch, 133 F.3d 464, 467 (7th Cir. 1998).
A proper and timely motion filed pursuant to Federal Rule of Civil Procedure 59(e) may
toll the appeal deadline. A Rule 59(e) motion must be filed no more than twenty-eight (28) days
after the entry of the judgment, and this 28-day deadline cannot be extended. It is not necessary
for Petitioner to obtain a certificate of appealability from this disposition of his § 2241 Petition,
Walker v. O’Brien, 216 F.3d 626, 638 (7th Cir. 2000).
The Clerk is DIRECTED to close this case and enter judgment accordingly.
IT IS SO ORDERED.
DATED: November 16, 2017

s/ STACI M. YANDLE
United States District Judge

13

Case 3:17-cv-01045-SMY Document 12 Filed 11/16/17 Page 1 of 1 Page ID #464

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
GARY E. PEEL,
Petitioner,
vs.
JOHN M. KOECHNER,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 17-cv-1045-SMY

JUDGMENT IN A CIVIL CASE

This action came before the Court, District Judge Staci M. Yandle, for preliminary
consideration of Petitioner’s application for writ of habeas corpus. The Court has rendered the
following decision:
IT IS ORDERED AND ADJUDGED that the petition for writ of habeas corpus is
summarily dismissed on the merits with prejudice. Judgment is entered in favor of Respondent
and against Petitioner. Petitioner is to take nothing from this action.
DATED: November 16, 2017
JUSTINE FLANAGAN, ACTING CLERK

By: s/ Tanya Kelley
Deputy Clerk

APPROVED: s/ STACI M. YANDLE
Staci M. Yandle
United States District Judge

APPENDIX - B

Case 3:17-cv-01045-SMY Document 21 Filed 07/2 F! 38 Page lot 7 Page ID #489

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
GARY E. PEEL,
Petitioner,
vs.
JOHN M. KOECHNER,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 17-cv-1045-SMY

MEMORANDUM AND ORDER
YANDLE, District Judge:
This matter is before the Court for consideration of Petitioner Gary Peel’s Motion to
Alter or Amend Judgment/Motion to Reconsider (Doc. 13). The Motion challenges this Court’s
November 16, 2017 Order, which dismissed Peel’s Habeas Corpus Petition brought pursuant’to
28 U.S.C. § 2241. (Doc. 11). In the Order, the Court noted the arguments advanced in the
Petition had either been previously raised on direct appeal or in a motion brought under 28
U.S.C. § 2255, or could have been presented in one of those proceedings. As such, the Court
concluded that § 2241 was not a proper vehicle for Peel to raise the arguments anew.
The instant motion invokes Federal Rule of Civil Procedure 59(e), and was filed within
the 28-day time limit required by that rule. Rule 59(e) permits a court to amend a judgment only
if the movant demonstrates a manifest error of law or fact or presents newly discovered evidence
that was not previously available. See, eg., Sigsworth v. City ofAurora, 487 F.3d 506, 511-12
(7th Cir. 2007). “A manifest error [of law or fact] is not demonstrated by the disappointment of
the losing party. It is the wholesale disregard, misapplication, or failure to recognize controlling
precedent.” Oto v. Metropolitan Life Ins. Co., 224 F.3d 601, 606 (7th Cir. 2000) (quotation

1

APPENDIX - C
j

Case 3:17-cv-01045-SMY Document 21 Filed 07/18/18 Page 2 of 7 Page ID #490

omitted). As discussed below, Peel’s arguments in support of his claim that the Court erred in its
legal analysis are unpersuasive. Accordingly, the motion shall be denied.
Peel asserts three claims of legal error: he contends that (1) the Court applied the wrong
standard to determine what qualifies as “newly discovered evidence;” (2) the Court erroneously
conflated the “value” of his ex-wife’s allegedly false bankruptcy claim for sentencing purposes
with the “value” of the false claim for purposes of proving “actual innocence” with “newly
discovered evidence”; and (3) the Court ignored controlling Supreme Court precedent that
removes all procedural bars to his habeas petition. (Doc. 13, p. 1).
In support of his argument that the Court applied the wrong standard for newly
discovered evidence, Peel cites Jones v. Calloway, 842 F.3d 454, 461-62 (7th Cir. 2016) and
several other cases. Each of the cited cases is distinguishable from Peel’s because they address
what may be considered as new evidence in the specific context of federal habeas review of a
state conviction under 28 U.S.C. § 2254.
Contrary to Peel’s belief, this Court correctly relied on the “newly discovered evidence”
standard that applies to a habeas petitioner convicted of a federal offense who seeks to use the
“savings clause” of 28 U.S.C. 2255(e) to bring an “actual innocence” claim under § 2241. That
standard was discussed and clearly explained in the Eastern District of Kentucky’s 2014 decision
dismissing Peel’s § 2241 Petition filed in that district. Peel v. Sepanek, Case No. 14-cv-77, 2014
WL 3611151, at *3 (E.D. Ky. July 21, 2014) (citing Hayes v. Holland, 473 F. App’x 501, 501-02
(6th Cir. 2012)); (Doc. 4-1, pp. 74-75). The Seventh Circuit’s criteria for bringing an actual
innocence claim in a § 2241 habeas action using § 2255(e)’s savings clause tracks those of the
Sixth Circuit, and Peel’s Petition filed in this action still fails to meet those requirements. His
claim does not rest on any new and retroactively applicable statutory interpretation case under

2

Case 3:17-cv-01045-SMY Document 21 Filed 07/18/18 Page 3 of 7 Page ID #491

which his conduct would no longer be criminal. See Kramer v. Olson, 347 F.3d 214, 218 (7th
Cir. 2003). See also Brown v. Caraway, 719 F.3d 583, 586 (7th Cir. 2013); Brown v. Rios, 696
F3d 638, 640 (7th Cir. 2012); Hill v. Werlinger, 695 F.3d 644, 648 (7th Cir. 2012); In re
Davenport, 147 F.3d 605, 609-10 (7th Cir. 1998).
Furthermore, the “new evidence” cited by Peel could have been presented in one of his
earlier challenges to his conviction. In particular, the bankruptcy court Minute Order Peel refers
to was available during his trial, and thus does not qualify as “newly discovered evidence” for
purposes of a § 2241 petition. The three court decisions which, according to Peel, confirm the
falsity of his ex-wife’s $2,800,000 bankruptcy claim also do not trigger the savings clause. The
December 19, 2011 bankruptcy court Order was available at the time Peel filed his original
§2255 motion in 2012.1 Thus, a challenge based on the information in that document could
have been raised in Peel’s first § 2255 motion (the order denying relief in the § 2255 proceeding
was not issued until April 29, 2013). Peel v. United States, Case No. 12-cv-275-WDS (Doc. 36
in that case). Likewise, the district court order (which referenced the Bankruptcy court’s
December 2011 approval of Peel’s ex-wife’s claim in the amount of $158,455.63) was also
available to Peel during the pendency of his § 2255 proceeding. See Peel v. Peel, Case No. 12cv-573-GPM, 2013 WL 566974 (S.D. Ill. Feb. 13, 2013) (affirming Bankruptcy Court Orders
and denying Peel’s appeal). Because no structural barrier prevented Peel from raising the
bankruptcy court or district court orders in his first §2255 proceeding, he cannot raise these
matters in a § 2241 Petition.
The appellate court order which Peel also claims constitutes new evidence on the value of

1 This Order reflects that Peel’s ex-wife originally filed a bankruptcy claim for $2,800,000 based on the
Marital Settlement agreement, and subsequently amended the amount to $434,112.30. She later agreed
with the Trustee to value the claim at $260,927.26. The bankruptcy court ultimately found that the value
of her claim was $158,455.63. (Doc. 1-1, pp. 36-42).
3

Case 3:17-cv-01045-SMY Document 21 Filed 07/18/18 Page 4 of 7 Page ID #492

the bankruptcy claim, was not issued until after Peel’s § 2255 proceeding was concluded. In re
Peel, 725 F.3d 696 (7th Cir. 2013) (Aug. 2, 2013). That order did not alter the valuation of
Peel’s ex-wife’s claim at $158,455.63, which had been reflected in the previously-referenced
2011 bankruptcy court and 2013 district court orders. 725 F.3d at 701. Nevertheless, § 2255
provides an avenue to present newly discovered evidence in a successive motion, if the evidence
would be sufficient to establish that no reasonable factfinder would have found the defendant
guilty. 28 U.S.C. § 2255(h)(1). Peel attempted to bring successive § 2255 challenges based on
these decisions, but the Seventh Circuit found that the “new evidence” did not demonstrate
Peel’s innocence as required by § 2255(h)(1). Again, because an opportunity existed under
§ 2255 for Peel to raise claims, he cannot now bring them under § 2241.
Peel’s second claim of error, that this Court conflated the value of his ex-wife’s
bankruptcy claim for sentencing purposes with the value of the claim for the purpose of proving
actual innocence, is without merit as well. Again, this information was available to Peel as early
as 2011, and he could have raised the issue of the bankruptcy claim’s value for any purpose he
wished to argue within the context of § 2255. Additionally, because Peel does not invoke any
retroactive supreme court statutory-interpretation case or any change in the law that post-dates
his § 2255 motion, he fails to meet two of the three requirements for triggering the § 2255(e)
savings clause. See Brown v. Caraway, 719 F.3d 583, 586 (7th Cir. 2013); Brown v. Rios, 696
F3d 638, 640 (7th Cir. 2012); In re Davenport, 147 F.3d 605, 609-10 (7th Cir. 1998).
Finally, Peel’s insistence that the Supreme Court’s decision in McQuiggin v. Perkins, 569
U.S. 383, 133 S. Ct. 1924 (2013) removed all procedural bars to his habeas petition is unavailing.
McQuiggin does not hold that a claim of actual innocence is a free-standing basis for habeas
relief. Rather, such a claim is only a gateway to consideration of defaulted constitutional claims

4

Case 3:17-cv-01045-SMY Document 21 Filed 07/18/18 Page 5 of 7 Page ID #493

under § 2254 - the habeas statute for prisoners convicted in state court. McQuiggin, 569 U.S. at
392. See also Gladney v. Pollard, 799 F.3d 889, 895 (7th Cir. 2015) (“The Supreme Court has
not recognized a petitioner’s right to habeas relief based on a stand-alone claim of actual
innocence.”).

The Supreme Court expressly noted that different rules apply to second or

successive petitions. McQuiggin, 569 U.S. at 395-96.
Obviously, Peel is not a state prisoner who will be deprived federal court review of
constitutional claims if he is not allowed to proceed on a § 2241 petition. In fact, he is a former
federal prisoner who has already availed himself of an opportunity for direct appeal and review
of his convictions under § 2255. He has twice unsuccessfully sought permission to bring a
successive § 2255 motion advancing the same arguments he made in the Petition in this case.
Simply put - § 2241 is not a vehicle for reviving claims the Seventh Circuit has previously
considered under 28 U.S.C. § 2255(h)(1) and rejected.2
Neither the language nor the reasoning of McQuiggin supports the expansive reading Peel
suggests. He does not cite any case from any Circuit that shares his interpretation of McQuiggin,
and this Court’s independent research has not revealed such a case. While the Seventh Circuit
has not spoken on the issue, the Third, Fifth, Tenth and Eleventh Circuit Courts have refused to
apply McQuiggin to permit a federal prisoner to bring a § 2241 petition without first showing the
remedy available under § 2255 was inadequate or ineffective. See, e.g., Hale v. Fox, 829 F.3d
1162, 1171 (10th Cir. 2016), cert, denied sub nom. Hale v. Julian, 137 S. Ct. 641 (2017); Ball v.
Boyle, 659 F. App’x 790, 791-92 (5th Cir. 2016); Boyce v. Berkebile, 590 F. App’x 825 (10th
Cir. 2015); Candelario v. Warden, 592 F. App’x 784 (11th Cir. 2014); McAdory v. Warden

2 Section § 2255(h)(1) allows the authorization of a successive § 2255 motion based on “newly discovered
evidence that, if proven and viewed in light of the evidence as a whole, would be sufficient to establish by
clear and convincing evidence that no reasonable factfinder would have found the movant guilty of the
offensef.]”
5

Case 3:17-cv-01045-SMY Document 21 Filed 07/11/18 Page 6 of 7 Page ID #494

Lewisburg USP, 545 F. App’x 88 (3rd Cir. 2013). This Court agrees with the reasoning in those
cases. McQuiggin does not open the door for Peel to assert an “actual innocence” claim as to his
bankruptcy fraud conviction, or to challenge his child pornography conviction based on his
argument that the nude photographs he took in 1974 were not illegal at the time he produced
them.
Upon review and reconsideration of the record in this case, and for the foregoing reasons,
the Court remains convinced that its dismissal of the § 2241 Petition was proper.
Disposition
Peel has not shown any mistake of law or fact, or presented any newly discovered
evidence that would entitle him to relief under Rule 59(e). Accordingly, the Motion to Alter or
Amend Judgment/Motion to Reconsider (Doc. 13) is DENIED; the Petition for habeas relief
pursuant to 28 U.S.C. § 2241 remains summarily DISMISSED with prejudice. In light of this
ruling, Petitioner’s Third, Fourth, and Fifth Motions for Court Ruling (Docs. 18, 19, & 20) are
DENIED AS MOOT.
It is not necessary for a petitioner to obtain a certificate of appealability for an appeal
based on a Petition brought under §2241. Walker v. O’Brien, 216 F.3d 626, 638 (7th Cir. 2000).
If Petitioner wishes to appeal the dismissal of this action, his notice of appeal must be filed with
this Court within 60 days of the date of this Order. Fed. R. App. P. 4(a)(4). A motion for leave
to appeal in forma pauperis (“IFP”) must set forth the issues Petitioner plans to present on
appeal. See Fed. R. App. P. 24(a)(1)(C). If Petitioner does choose to appeal and is allowed to
proceed IFP, he may be required to pre-pay a portion of the $505.00 appellate filing fee,
commensurate with his ability to pay. See Walker v. O’Brien, 216 F.3d 626, 638 n.5 (7th Cir.
2000); Fed. R. App. P. 3(e). An appellant who is granted IFP status still incurs the obligation to

6

Case 3:17-cv-01045-SMY Document 21 Filed 07/18/18 Page 7 of 7 Page ID #495

pay the entire appellate filing fee. Thomas v. Zatecky, 712 F.3d 1004, 1004-05 (7th Cir. 2013);
Ammons v. Gerlinger, 547 F.3d 724, 725-26 (7th Cir. 2008); Sloan v. Lesza, 181 F.3d 857, 85859 (7th Cir. 1999); Lucien v. Jockisch, 133 F.3d 464,467 (7tn Cir. 1998).
IT IS SO ORDERED.
DATED: July 18, 2018
s/ STACIM. YANDLE
United States District Judge

7

